App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
---------------------------------------------------------

No. 18-40969
---------------------------------------------------------

SHANNON DALE DUKES,
Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT
OF CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas
-----------------------------------------------------------------------

(Filed Oct. 16, 2019)
ORDER:
Shannon Dale Dukes, Texas prisoner # 1743506,
seeks a certificate of appealability (COA) to appeal the
district court’s denial of his 28 U.S.C. § 2254 application challenging his 2011 conviction for continuous
sexual abuse of a child. He contends that reasonable
jurists could debate whether the district court erred in
denying his claim that trial counsel was ineffective in
failing to request jury instructions on the lesser included offenses of sexual assault of a child under 17
and indecency with a child.

App. 2
A COA may be issued “only if the applicant has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When the district
court has rejected a constitutional claim on the merits,
a COA will be granted only if the prisoner “demonstrate[s] that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong” or that the issues presented are “adequate to deserve encouragement to proceed further.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal
quotation marks and citation omitted). Dukes has
failed to make the requisite showing. See id.
Dukes does not reassert his claims that trial counsel was ineffective in: (1) eliciting and failing to object
to testimony regarding Dukes’s bad character and extraneous acts of misconduct; (2) failing to object to improper hearsay and opinion testimony from Peggy
Dukes; and (3) failing to argue that evidence regarding
the complainant’s prior sexual relationship with her
boyfriend was admissible based on Dukes’s constitutional rights to confrontation and cross-examination
and because the State had opened the door to such evidence. He has therefore abandoned these claims by
failing to brief them in his COA motion and brief. See
Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir. 1999).
Accordingly, Dukes’s motion for a COA is DENIED.
/s/ Leslie H. Southwick
LESLIE H. SOUTHWICK
UNITED STATES CIRCUIT JUDGE

App. 3
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
SHANNON DALE DUKES

§

VS.

§

DIRECTOR, TDCJ -CID

§

CIVIL ACTION
NO. 1:15cv137

ORDER
(Filed Nov. 14, 2018)
Petitioner Shannon Dale Dukes, through counsel,
filed this petition for writ of habeas corpus pursuant to
28 U.S.C. § 2254. The petition was previously denied
and dismissed.
Petitioner has filed a notice of appeal and a motion
for certificate of appealability. Before petitioner can appeal the judgment a certificate of appealability (COA)
must issue. Miller-El v. Cockrell, 537 U.S. 322, 336
(2003). A certificate of appealability may issue under
28 U.S.C. § 2253 “only if the applicant has made a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2); Barefoot v. Estelle, 463 U.S. 880
(1982); Butler v. Byrne, 845 F. 2d 501, 505 (5th Cir.
1988). “A petitioner satisfies this standard by demonstrating that jurists of reason could disagree with the
district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327.

App. 4
If the petition was denied on procedural grounds,
the petitioner must show that jurists of reason would
find it debatable (1) whether the petition raises a valid
claim of the denial of a constitutional right and (2)
whether the district court was correct in its procedural
ruling. Slack v. McDaniel, 529 U.S. 473, 478 (2000). The
court must either issue a certificate of appealability indicating which issues satisfy the required showing, or
must state the reasons why such a certificate should
not issue. FED. R. APP. P. 22(b).
In this case the standards for issuance of a certificate of appealability are not met. Petitioner has not
made a substantial showing of the denial of a constitutional right. Accordingly, the court is of the opinion
that a certificate of appealability should not issue in
this case. It is therefore
ORDERED that petitioner’s motion for a certificate of appealability is DENIED.
So ORDERED and SIGNED November 14,
2018.
/s/ Ron Clark
Ron Clark, Senior District Judge

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
SHANNON DALE DUKES

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION
NO. 1:15cv137

ORDER
(Filed Sep. 24, 2018)
Petitioner Shannon Dale Dukes, an inmate confined at the Pack Unit of the Texas Department of
Criminal Justice, Correctional Institutions Division,
through counsel, filed this petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2254.
Factual Background and Prior Proceedings
On June 15, 2011, following a trial by jury in cause
number 10-08423 before the Criminal District Court
of Jefferson County, Texas, petitioner was found guilty
of continuous sexual abuse of a child. Petitioner was
sentenced to a term of forty (40) years’ imprisonment.
Petitioner’s conviction was affirmed in an unpublished
opinion by the Thirteenth District Court of Appeals
on July 26, 2012. Dukes v. State, 2012 WL 3041336
(Tex. App. – Corpus Christi 2012, pet. ref ’d). Petitioner’s petition for discretionary review was refused
by the Texas Court of Criminal Appeals on December

App. 6
19, 2012. Id. Petitioner did not file a petition for writ of
certiorari with the Supreme Court.
Petitioner’s state application for writ of habeas
corpus was filed by his present counsel on March 17,
2014. The habeas application was denied without written order by the Texas Court of Criminal Appeals on
April 1, 2015. Petitioner filed the above-styled federal
petition for writ of habeas corpus on April 2, 2015.
The Petition
Petitioner brings this petition for writ of habeas
corpus asserting the state court decision that trial
counsel was not ineffective at the guilt-innocence stage
was contrary to or involved an unreasonable application of Supreme Court precedent and was based on an
unreasonable determination of the facts in light of the
evidence presented. First, petitioner alleges trial counsel performed deficiently at the guilt-innocence stage
in failing to request instructions on lesser included offenses or object to their omission from the jury charge.
Next, petitioner alleges counsel elicited and failed to
object to testimony that petitioner had bad character
and committed extraneous acts of misconduct. Further,
petitioner alleges counsel failed to object to improper
hearsay and opinion testimony from petitioner’s wife.
Finally, petitioner alleges that counsel failed to argue
to the court that the evidence regarding the complainant’s prior sexual relationship with her boyfriend was
admissible based on petitioner’s right to confrontation

App. 7
and cross-examination and because the State had
opened to the door to it.
The Response
The respondent filed a response to the court’s order to show cause why relief should not be granted. The
respondent contends petitioner failed to meet the burden of proof required in order to obtain federal habeas
relief under the AEDPA. The respondent asserts the
petition is an intrusive, post-trial attack on trial counsel which the Supreme Court has repeatedly discredited. The respondent contends petitioner has failed to
demonstrate that the state court’s denial of his ineffective assistance of counsel claims was objectively unreasonable. The respondent also asserts petitioner has
failed to demonstrate either deficient performance or
prejudice. Further, the respondent contends petitioner
has failed to show the state court resolution of petitioner’s claims resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme
Court of the United States or resulted in a decision
that was based on an unreasonable determination of
the facts in light of the evidence presented in the state
court proceedings. Accordingly, the respondent asserts
that the petition should be dismissed with prejudice.
Standard of Review
Title 28 U.S.C. § 2254(a) allows a district court to
“entertain an application for a writ of habeas corpus in

App. 8
behalf of a person in custody pursuant to the judgment
of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of
the United States.” 28 U.S.C. § 2254(a).
Section 2254 generally prohibits a petitioner from
relitigating issues that were adjudicated on the merits
in State court proceedings, with two exceptions. See
28 U.S.C. § 2254(d). The first exception allows a petitioner to raise issues previously litigated in the State
court in federal habeas proceedings if the adjudication
“resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States.” 28 U.S.C. § 2254(d)(1). The second
exception permits relitigation if the adjudication “resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d)(2). Federal habeas relief from a state court’s
determination is precluded “so long as fairminded jurists could disagree on the correctness of the state
court’s decision.” Harrington v. Richter, 562 U.S. 86,
101 (2011).
Federal habeas courts are not an alternative forum for trying facts and issues which were insufficiently developed in state proceedings. Williams v.
Taylor, 529 U.S. 420, 437 (2000). Further, following the
Supreme Court’s decision in Cullen v. Pinholster, federal habeas review under 2254(d)(1) “is limited to the
record that was before the state court that adjudicated

App. 9
the claim on the merits.” Cullen v. Pinholster, 563 U.S.
170, 181 (2011).
A determination of a factual issue made by a state
court shall be presumed to be correct upon federal habeas review of the same claim. The petitioner shall
have the burden of rebutting the presumption by clear
and convincing evidence. 28 U.S.C. § 2254(e)(1).
A decision is contrary to clearly established federal law if the state reaches a conclusion opposite to a
decision reached by the Supreme Court on a question
of law or if the state court decides a case differently
than the Supreme Court has on a set of materially indistinguishable facts. See Williams, 529 U.S. at 412-13.
An application of clearly established federal law is unreasonable if the state court identifies the correct governing legal principle, but unreasonably applies that
principle to the facts. Id. Under this standard, an unreasonable application is more than merely incorrect
or erroneous; rather, the state court’s application of
clearly established law must be “objectively unreasonable.” Williams, 529 U.S. at 409. The focus of this objective reasonableness inquiry is on the state court’s
ultimate decision, not whether the state court “discussed every angle of the evidence.” Dale v. Quarterman, 553 F.3d 876, 879 (5th Cir. 2008) (quoting Neal v.
Puckett, 286 F.3d 230, 246 (5th Cir. 2002) (en banc)),
cert. denied, 558 U.S. 847 (2009). “It bears repeating
that even a strong case for relief does not mean the
state court’s contrary conclusion was unreasonable.”
Richter, 562 U.S. at 102.

App. 10
The deferential AEDPA standard of review applies
even where the state court fails to cite applicable controlling Supreme Court precedent or fails to explain
its decision. See Early v. Packer, 537 U.S. 3, 8-9 (2002).
Likewise, “[b]ecause a federal habeas court only reviews the reasonableness of the state court’s ultimate
decision, the AEDPA inquiry is not altered when . . .
state habeas relief is denied without [a written] opinion.” Schaetzle v. Cockrell, 343 F.3d 440, 443 (5th Cir.
2003). For such a situation, a reviewing court (1) assumes the state court applied the proper “clearly established Federal law” and (2) then determines
whether its decision was “contrary to” or “an objectively unreasonable application of ” that law. Id. (citing
Catalan v. Cockrell, 315 F.3d 491, 493 & n.3 (5th Cir.
2002).
This court must accept as correct any factual determinations made by the state courts unless the petitioner rebuts the presumption of correctness by clear
and convincing evidence. 28 U.S.C. § 2254(e). The presumption of correctness applies to both implicit and explicit factual findings. See Young v. Dretke, 356 F.3d
616, 629 (5th Cir. 2004); Valdez v. Cockrell, 274 F.3d
941, 948 n. 11 (5th Cir. 200 1) (“The presumption of correctness not only applies to explicit findings of fact, but
it also applies to those unarticulated findings which
are necessary to the state court’s conclusions of mixed
law and fact.”). Deference to the factual findings of a
state court is not dependent upon the quality of the
state court’s evidentiary hearing. See Valdez, 274 F.3d
at 951 (holding that a full and fair hearing is not a

App. 11
precondition according to § 2254(e)(1)’s presumption of
correctness to state habeas court findings of fact nor to
applying § 2254(d)’s standards of review).
Analysis
Ineffective Assistance of Counsel
When addressing the issue of what a petitioner
must prove to demonstrate an actual ineffective assistance of counsel claim, courts look to the standard set
forth in Strickland v. Washington, 466 U.S. 668 (1984).
See United States v. Grammas, 376 F.3d 433, 436 (5th
Cir. 2004). In order to establish an ineffective assistance of counsel claim, the petitioner must demonstrate:
First . . . that counsel’s performance was deficient. This requires showing that counsel
made errors so serious that counsel was not
functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Second,
the defendant must show that the deficient
performance prejudiced the defense. This requires showing that counsel’s errors were so
serious as to deprive the defendant of a fair
trial, a trial whose result is reliable. Unless a
defendant makes both showings it cannot be
said that the conviction or death sentence resulted in a breakdown of the adversarial process that renders the result unreliable.
Strickland, 466 U.S. at 687.

App. 12
“To show deficient performance, ‘the defendant
must show that counsel’s representation fell below an
objective standard of reasonableness.’ ” Reed v. Stephens, 739 F.3d 753, 773 (5th Cir. 2014) (quoting
Strickland, 466 U.S. at 688). “Counsel’s performance is
judged based on prevailing norms of practice, and judicial scrutiny of counsel’s performance must be highly
deferential to avoid ‘the distorting effects of hindsight.’ ” Loden v. McCarty, 778 F.3d 484, 494 (5th Cir.
2015) (quoting Carty v. Thaler, 583 F.3d 244, 258 (5th
Cir. 2009)). “A conscious and informed decision on trial
tactics and strategy cannot be the basis for constitutionally ineffective assistance of counsel unless it is so
ill chosen that it permeates the entire trial with obvious unfairness.” United States v. Jones, 287 F.3d 325,
331 (5th Cir. 2002) (quoting Garland v. Maggio, 717
F.2d 199, 206 (5th Cir. 1983)). “There is a strong presumption that counsel’s conduct falls within a wide
range of reasonable professional assistance.” Woodward v. Epps, 580 F.3d 318, 329 (5th Cir. 2009) (quoting
Romero v. Lynaugh, 884 F.2d 871, 876 (5th Cir. 1989)).
In this regard, “counsel’s performance need not be optimal to be reasonable.” Murphy v. Davis, ___ F.3d ___,
2018 WL 4042362 (5th Cir. 2018).
Strategic decisions made by counsel during the
course of trial are entitled to substantial deference in
the hindsight of federal habeas review. See Strickland,
466 U.S. at 689 (emphasizing that “[j]udicial scrutiny
of counsel’s performance must be highly deferential”
and that “every effort [must] be made to eliminate
the distorting effects of hindsight”). A federal habeas

App. 13
corpus court may not find ineffective assistance of
counsel merely because it disagrees with counsel’s
chosen trial strategy. See Crane v. Johnson, 178 F.3d
309, 312 (5th Cir. 1999).
In order to show prejudice, the defendant “must
show that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466
U.S. at 694. “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id.
“The likelihood of a different result must be substantial, not just conceivable.” Richter, 562 U.S. at 112, 131
S.Ct. 770. In cases where the deficiency occurred in the
state punishment context, “the relevant inquiry is
whether, absent counsel’s errors, there is a reasonable
probability that the defendant’s sentence would have
been ‘significantly less harsh,’ . . . taking into account
‘such factors as the defendant’s actual sentence, the potential minimum and maximum sentences that could
have been received, the placement of the actual sentence within the range of potential sentences, and any
relevant mitigating or aggravating circumstances.’ ”
Dale, 553 F.3d at 880 (quoting Spriggs v. Collins, 993
F.2d 85, 88-89 (5th Cir. 1993) and United States v.
Segler, 37 F.3d 1131, 1136 (5th Cir. 1994)). Because the
petitioner must prove both deficient performance and
prejudice, the petitioner’s failure to prove either will be
fatal to his claim. Johnson v. Scott, 68 F.3d 106, 109
(5th Cir. 1995).
The burden of proof in a habeas corpus proceeding
attacking the effectiveness of trial counsel is upon the

App. 14
petitioner, who must demonstrate counsel’s ineffectiveness by a preponderance of the evidence. See Martin v.
Maggio, 711 F.2d 1273, 1279 (5th Cir. 1983). A habeas
petitioner must “affirmatively prove,” not just allege,
prejudice. Day, 556 F.3d at 536. If a petitioner fails to
prove the prejudice part of the test, the court need not
address the question of counsel’s performance. Id. A
reviewing court “must strongly presume that trial
counsel rendered adequate assistance and that the
challenged conduct was the product of a reasoned trial
strategy.” Wilkerson v. Collins, 950 F.2d 1054, 1065 (5th
Cir. 1992). In determining the merits of an alleged
Sixth Amendment violation, a court “must be highly
deferential” to counsel’s conduct. Strickland, 466 U.S.
at 687.
When a petitioner brings an ineffective assistance
claim under the AEDPA, the relevant question is
whether the state court’s application of the deferential
Strickland standard was unreasonable. See Beatty v.
Stephens, 759 F.3d 455, 463 (5th Cir. 2014). “Both the
Strickland standard and AEDPA standard are ‘highly
deferential,’ and ‘when the two apply in tandem, review is doubly so.’ ” Id. (quoting Richter, 562 U.S. at
105).
A. Jury Instruction
In his first ground for review, petitioner contends
trial counsel provided ineffective assistance when
counsel failed to request a jury instruction on lesser
included offenses or object to their omission from the

App. 15
jury charge. Petitioner contends he was entitled to instructions in the jury charge on the lesser included
offenses of indecency with a child by contact, aggravated sexual assault of a child (over 14 years of age),
and sexual assault.
In Texas, a two-step process determines whether a
lesser included offense instruction should be given to
the jury. See Bullock v. State, 509 S.W. 3d 921, 924 (Tex.
Crim. App. 2016); Hall v. State, 225 S.W.3d 524, 535-36
(Tex. Crim. App. 2007). First, the trial court must determine “whether the requested instruction pertains
to an offense that is a lesser included offense of the
charged offense, which is a matter of law.” Bullock, 509
S.W.3d at 924. The first step is established where the
offense is within the proof of the same or less than all
the facts necessary to establish the offense charged. Id.
“The second step . . . asks whether there is evidence in the record that supports giving the instruction to the jury.” Bullock, 509 S.W.3d at 924-25. Under
the second step, “a defendant is entitled to an instruction on a lesser-included offense when there is some
evidence in the record that would permit a jury to rationally find that, if the defendant is guilty, he is guilty
only of the lesser-included offense.” Id. at 925.
In this case, trial counsel developed a trial strategy to attack the credibility of the complaining witness
and his wife through the testimony of Chuck Hammack and Allen Dukes based on what he had been told
prior to trial. This strategy is reflected in both counsel’s
affidavit and testimony before the state habeas court.

App. 16
In his affidavit counsel stated, in pertinent part, the
following:
It was the theory of the case to attack the
credibility of the complaining witness and
Mrs. Dukes through the testimony of Chuck
Hammack and Allen Dukes. Hours had been
spent in preparation with both gentlemen to
attack, impeach and question the credibility
of the complaining witness and Mrs. Dukes.
Both gentlemen had numerous contradicting
recollections that would have questioned both
the complaining witness and Mrs. Dukes.
Once I learned that Mr. Dukes and Mr. Hammack had lied, and would continue to lie if put
on as witnesses, I chose not to call them. This
also raised the question that obviously my client, Mr. Shannon Dukes, had lied to me. This
information and the realization of its consequences on my planned trial strategy was
akin to being hit over the head with a club. I
actually became nauseous.
13 SHCR at 152 (Docket entry no. 10-13 at 154).
Additionally, when questioned at the state habeas
evidentiary hearing, counsel provided the following:
Q. So, now you have let the Court know here
that your basic strategy was a challenge to the
credibility the State’s witnesses; is that correct?
A.

[Trial counsel]: Yes.

Q. And that is based on what you had been
told prior to trial; is that correct?

App. 17
A.

It is what I knew prior to trial.

Q. What you knew prior to trial. Would it be
fair to say, and please correct me if I am
wrong, that your strategy was to show that
the complaining witness lied?
A.

Yes.

Q. And that you had two witnesses to refute
her testimony?
A.

Yes.

Q. Okay. And at what point in the trial was
it that you found out these two witnesses were
lying?
A. The State had rested and I was getting
ready to open my case and call them.
Q. Okay. So, directly in the midpoint of
trial –
A.

Things changed.

Q. You lost your paddle in that creek; is that
correct?
A.

Yes.

Q. Just to address the point of lesser included offenses, and there must have been a
lot more going through your head than this at
the time, was there any doubt in your mind at
that point that if offered [a] lesser included offense [charge] your client would definitely be
convicted?

App. 18
A. You know, I don’t even know if I thought
that.
Q. Okay. At that point with your strategy
blown, was there anything about the case that
you could have attacked other than the element of continuous?
A. I don’t think so. I don’t think so. I don’t
know.
Q. Okay. Everything that you said you might
have done differently has been a result of
hindsight; is that correct?
A. Well, yes. And, you know, there are always
different ways to do things. I should have
probably taken a different path.
Q. Well, before you went to trial did you recognize that there might be two or three or four
pathways you could take in trial?
A. I had, but this is the path I chose fit the
witnesses I had and the evidence they knew
and I felt comfortable with it.
Q. And had those witnesses, and I assume
the defendant been truthful with you, would
you have taken a different strategy?
A. Well, I mean, I felt they were being truthful with me. I took that strategy, yes.
Q. Correct. So, if you had known a month before trial that this was not true you would
have –

App. 19
A. I would have done something differently,
yeah.
***
Q. Okay. And generally speaking, I mean,
you’ve tried a lot of cases here. Is using a
lesser included offense, is that generally a defense tool or a State’s tool, in your experience?
A. Normally, it’s – I don’t know. I’ve kind of
seen it 50/50 both ways. It just depends so
much on the facts and the case.
Q. And because of what you believed you
knew about this case, did you even consider?
A. I don’t think I considered him. I just – I
thought I had a very strong case that Mr.
Dukes could be found innocent on.
9 SHCR at 352-54 (Docket entry no. 10-9 at 105-09).
The state habeas trial court also made the following
conclusions based on the evidence presented:
52. Trial counsel’s testimony at the evidentiary hearing establishes that the entire foundation of this main defensive strategy rested
on the testimony of defense witnesses, Allen
Dukes, applicant’s brother, and Chuck Hammock, a long-time family friend of the Dukes’
family, and a man trial counsel had known for
“many years” and who trial counsel believed
to be very credible. [Supp.RR.pp.37-38, 43-44,
79, 82, 84-85]
***

App. 20
54. Trial counsel’s testimony at the evidentiary hearing establishes it was shortly after
the State rested its case-in-chief and counsel
was about to open his case for the defense, at
the guilt-innocence phase of trial, when counsel first learned, during the lunch-time recess,
both Allen Dukes and Chuck Hammock had
been entirely dishonest with him regarding
their knowledge of truthful impeachmentevidence about which they were to testify in
applicant’s defense. [4RR77-78; Supp.RR105]
55. Trial counsel’s testimony establishes
that up until he was about to open the guiltinnocence phase case for the defense, just before uncovering Hammock’s and Allen Dukes’
deception, trial counsel firmly believed the
testimony from Allen Dukes and Chuck Hammock would not have merely refuted the complainant’s sexual abuse allegations and Peggy
Dukes’ testimony relating to applicant’s character flaws and extraneous misconduct, but
would have shown that L.G. and Peggy “were
lying.” [Supp.RR pp. 37-38, 81, 105; 4RR7778].
10 SHCR at 43-44 (docket entry no. 10-10 at 44-45).
Petitioner argues there was no sound strategic
reason for counsel to conclude the jury would acquit
petitioner where it did not have the option to convict
him of one or more lesser included offense. However,
“strategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually unchallengeable.” Strickland, 466 U.S. at 690-91.

App. 21
Federal courts will not question a counsel’s reasonable
strategic decisions. Bower v. Quarterman, 497 F.3d 459,
470 (5th Cir. 2007), cert. denied, 553 U.S. 1006 (2008);
see also Pondexter v. Quarterman, 537 F.3d 511, 521
(5th Cir. 2008) (trial counsel’s tactical decisions do not
fall below Strickland standards simply because they do
not succeed as planned). Further, the Strickland standard calls for an inquiry into the objective reasonableness of counsel’s performance at the time without the
distorting effect of hindsight. See Strickland, 466 U.S.
at 689.
The record supports the implicit reasonable conclusion by the Texas Court of Criminal Appeals, as the
habeas trial court found, that trial counsel formulated
a defense strategy to directly impeach the victim and
her mother, in an effort to obtain a full acquittal of the
charged offense, as well as refute the previous testimony relating to other extraneous misconduct by petitioner. This strategy, however, was tainted by lies
perpetuated by petitioner and his potential witnesses,
facts unknown to counsel until after the prosecution
had rested its case.
Petitioner also argues counsel failed to consult petitioner prior to deciding not to request instructions in
the jury charge on lesser included offenses. However,
the trial strategy was to have the jury disbelieve the
complaining witness and her mother, but counsel had
his whole strategy blown by the planned perjury of the
defense witnesses. See 9 SHCR at 353 (docket entry no.
10-9 at 106). While petitioner disagrees with this strategy, he has failed to show it was so unreasonable as to

App. 22
constitute deficient performance, based on the facts
known to counsel at the time. Accordingly, petitioner
has failed to show the implicit determination by the
Court of Criminal Appeals that he failed to establish
deficient conduct related to his claim of ineffective
assistance of counsel was unreasonable. Moreover, as
explained below, even assuming counsel’s performance
was deficient, petitioner has failed to show prejudice.
Petitioner has failed to show the implicit determination by the Court of Criminal Appeals that he failed
to establish prejudice related to his claim of ineffective
assistance of counsel was unreasonable. The victim
had presented uncontested testimony that before she
was 14 years old, petitioner committed numerous repeated acts of sexual abuse against her over a two year
period. Additionally, there was uncontested physical
evidence including the presence of petitioner’s semen
on the victim’s bedsheet indicating he had sexual intercourse with the victim.
The state habeas court made the following findings:
77. Without any defensive evidence to question the credibility of L.G.’s testimony describing the months, and years, of applicant’s
sexual abuse, the evidence of applicant’s guilt
for Continuous Sex Abuse, as alleged in the
indictment, was substantial and uncontested,
to-wit:
(a) the fact this Court has concluded applicant was not entitled to having the jury instructed on any lesser included offense as a

App. 23
matter of law under Ground 1, IAC allegation
(1);
(b) the fact that the jury was presented with
uncontested testimony from L.G. that applicant sexually abused her on numerous occasions, over a period of time that exceeded 30
days, when she was 13 years of age as alleged
in the indictment;
(c) the fact that the jury was presented with
physical evidence, also uncontested, strongly
suggesting the presence of applicant’s semen
on L.G.’s bedsheet following DNA analysis of
said bedsheet, this evidence additionally corroborating L.G.’s testimony that the last time
applicant had sexual intercourse with her was
a few days before her September 21, 2009, outcry [3RR135]; and,
(d) the fact the jury heard applicant acknowledge to Peggy Dukes he “did it one time”
with L.G., which was construed by Peggy
Dukes as applicant admitting to having committed some type of sexual abuse of L.G. [3RR
77].
10 SHCR at 51-52 (docket entry no. 10-10 at 52-53) (alterations in original).
Although petitioner may have only admitted one
improper sexual act to his wife, it is purely speculative,
in light of the strong evidence against him concerning
multiple acts of sexual abuse, that the jury would have
believed he committed only the one act to which he admitted and not the other acts as claimed by the victim

App. 24
and supported by the evidence. While a lesser included
offense charge would have resulted in a sure conviction
of the offense to which petitioner admitted, it does not
necessarily follow that the jury would have overlooked
petitioner’s countless other acts of sexual abuse in
order to acquit him of the continuous sexual abuse offense. Thus, while it is possible petitioner might have
been sentenced to a lesser term of confinement if convicted of only a lesser included offense, petitioner has
not shown there is a reasonable probability he would
have been convicted only of a lesser included offense.
Thus, petitioner has failed to show a reasonable probability his sentence would have been significantly less
harsh when all of the relevant factors present in this
case are taken into consideration, namely the strong
evidence of other countless acts of sexual abuse
against the victim by petitioner. Thus, the Court of
Criminal Appeals could have reasonably concluded petitioner failed to show prejudice with respect to this
claim. “It bears repeating that even a strong case for
relief does not mean the state court’s contrary conclusion was unreasonable.” Richter, 562 U.S. at 102.
Petitioner has failed to demonstrate he is entitled
to relief with respect to the habeas court’s determination that trial counsel’s performance was constitutional.
Petitioner has failed to show counsel’s performance
was either deficient or prejudicial. Petitioner has failed
to show either that the state court adjudication was
contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the
Supreme Court of the United States or that the state

App. 25
court adjudication resulted in a decision that was
based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding. Accordingly, petitioner’s ground for relief
should be denied.
B. Failure to Object
Next, petitioner alleges counsel elicited and failed
to object to testimony that petitioner had bad character and committed extraneous acts of misconduct.
Petitioner claims counsel did not request more specific
notice or file a motion in limine to exclude alleged inadmissible evidence regarding petitioner’s bad character and extraneous acts of misconduct, including the
violation of a protective order, physical abuse, and
threatening to kill the victim’s boyfriend and his family.
The state habeas trial court made the following
relevant findings:
57. Trial counsel explained that he wanted
the “objectionable” testimony at issue admitted before the jury during trial stating “[i]t
was going to come in at some point[,]” because,
pursuant to his strategy, “[t]here was a lot of
evidence I was going to develop through my
witnesses that might have got into that[.]”
[Supp.RRp.85]
58. Peggy Dukes’ testimony, elicited by the
State, relating her therapist’s opinion that
applicant had “control issues,” and that the

App. 26
abuse went on so long because there was a
bond between applicant and L.G. based on his
control and her sympathy, was the only objectionable [“inadmissible hearsay”] testimony
at issue to which trial counsel admitted to not
having intended for the jury to hear, explaining, “I just missed it.” [Supp.RRpp.95-96]
59. Trial counsel’s testimony at the evidentiary hearing established that it was immaterial to him that the particular testimony at
issue from either L.G. or Peggy Dukes was
admissible or inadmissible because counsel
had intended to place it before the jury in furtherance of his defensive strategy to destroy
the credibility of those witnesses, and he was
confident that the testimony of Allen Dukes,
in whom Peggy and L.G. had confided on several occasions, and Chuck Hammock, a longtime family friend, would accomplish this.
[Supp.RRpp. 116-119; 3RR67-68; 114-115;
117-118; 162]
60. Trial counsel’s testimony establishes that
only in hindsight, and with the knowledge he
now possesses that the evidentiary foundation
of his defensive strategy – Allen Dukes’ and
Chuck Hammock’s impeachment-testimony –
was never presented to the jury, does he now
concede that objecting to, and not eliciting,
the alleged objectionable testimony at issue
would have been the more appropriate
method of defending applicant during trial.
[Supp.RRpp.88, 90-94]

App. 27
10 SHCR at 45-46 (docket entry no. 10-10 at 363-64).
Additionally, the state habeas trial court found the
relevant testimony was admissible under Texas law.
The state court made the following findings:
63. Because Continuous Sex Abuse is one
of the offenses listed under Article 38.37,
§ 1(a)(1), the State is not restricted in its proof
to only those acts of sexual abuse alleged in
the Continuous Sex Abuse indictment; the
State, as it did during applicant’s jury trial,
is permitted to introduce, notwithstanding
Rules of Evidence 404(b) and 405, relevant
“evidence of other crimes, wrongs, or acts committed by the defendant against the child . . .
including:” the child’s and the defendant’s
state of mind, and the previous and subsequent relationship between the child and the
defendant. Article 38.37, § l(b)(1) & (2) (emphasis added).
64. Because the Legislature used the word
“including” immediately before the two listed
purposes for introducing extraneous crime or
misconduct evidence committed against the
child in Article 38.37, § 1 (b), the two listed
purposes are considered illustrative and not
exclusive. Berry v. State, 233 S.W.3d 847, 848
(Tex. Crim. App. 2007) (construing Texas Rule
of Evidence 404(b)’s list of “other purposes” in
such a manner.)
***
70. Based on the nature of the offense, and
the availability of Article 38.37 to the State,
trial counsel was faced with the fact that in

App. 28
the State’s case-in-chief, the jury would learn
not only of applicant’s multiple and repeated
acts of sexual abuse of L.G. as alleged in the
indictment, but would also hear evidence of
any other relevant “crimes, wrongs, or acts”
perpetrated on L.G. by applicant both before
and after the book-end dates alleged in the indictment.
10 SHCR at 47, 49 (docket entry no. 10-10 at 48, 50).
Petitioner bases his argument on the Fifth Circuit
opinion in Lyons v. McCotter wherein the court stated
“[t]o pass over the admission of prejudicial and arguably inadmissible evidence may be strategic; to pass
over the admission of prejudicial and clearly inadmissible evidence . . . has no strategic value.” Lyons v.
McCotter, 770 F. 2d 529, 534 (5th Cir. 1985). However,
as the Fifth Circuit has noted, Lyons was a pre-AEDPA
case and did not rely on the “doubly deferential standard” applicable to this case. See Cortez v. Davis, 683 F.
App’x 292, 297 n.3 (5th Cir. 2017). Moreover, to obtain
relief, the state court’s application of the law has to be
an unreasonable application of federal law as determined by the Supreme Court, not by the Fifth Circuit.
Id.
Additionally, based on the record before the court,
the Court of Criminal Appeals could reasonably have
concluded that trial counsel believed his prospective
witnesses’ testimony would be both damaging to the
credibility of victim and her mother, and that it would
enable an attack on their credibility. At the time of
counsel’s failure to object of which petitioner now

App. 29
complains, it was not material to trial counsel that
such testimony was not yet admissible during the prosecution’s case because his later attack on their credibility would open the door to the testimony. Counsel
believed the information was going to come in at some
point. Further, based on counsel’s testimony at the
state habeas proceeding, the Court of Criminal Appeals could reasonably have concluded that trial counsel believed he could show that the complaining
witness and her mother were lying about the extraneous conduct also.
In the Fifth Circuit, a reasonable effective defense
attorney could pursue counsel’s strategy at issue in
this case. See Pape v. Thaler, 645 F.3d 281, 290-91 (5th
Cir. 2011). In Pape, the court determined counsel had
not acted deficiently allowing in evidence that would
otherwise be inadmissible where it was based on a reasonable trial strategy and would not question tactical
questions made petitioner’s counsel when, in hindsight, an alternative course of action existed during
trial. Id. at 291; see also Cotton v. Cockrell, 343 F.3d
746, 752-53 (5th Cir. 2003) (giving deference to decision
not to present two witnesses as part of counsel’s decision to pursue a different defense); Green v. Johnson,
116 F.3d 1115, 1121-23 (5th Cir. 1997) (discussing
counsel’s decision not to present an expert defense witness after choosing a different course of strategy). It is
clear in the Fifth Circuit that “counsel is not required
to make futile motions or objections.” See Roberts v.
Thaler, 681 F.3d 597, 611 (5th Cir. 2012); Murray v.
Maggio, 736 F.2d 279, 283 (5th Cir. 1984). “Failure to

App. 30
raise meritless objections is not ineffective lawyering;
it is the very opposite.” Clark v. Collins, 19 F.3d 959,
966 (5th Cir. 1994).
The implicit conclusion by the Texas Court of
Criminal Appeals that it would have been a reasonable
furtherance of the defensive strategy to permit such
testimony so that trial counsel could later impeach it
is not an unreasonable determination. The court did
not unreasonably apply the Strickland standard when
implicitly concluding counsel had not acted deficiently
in this regard. Accordingly, petitioner has failed to
show counsel was deficient in his performance or that
the implicit findings of the Court of Criminal Appeals
were unreasonable determinations.
Further, petitioner has failed to show prejudice
regarding this claim in light of the strong evidence
against him. Counsel was unaware of the planned perjury of his defense witnesses until the middle of trial.
While the introduction of the complained of prior bad
acts might have given the jury additional reasons to
find him guilty, the Court of Criminal Appeals could
have reasonably found petitioner would have been convicted of the charged offense without the additional
acts because of the unimpeached testimony in the record. Thus, petitioner has failed to satisfy his burden
regarding prejudice.
Petitioner has failed to demonstrate he is entitled
to relief with respect to the state court’s determination
that trial counsel’s performance was constitutional. Petitioner has failed to show counsel’s performance was

App. 31
either deficient or prejudicial. Petitioner has failed to
show either that the state court adjudication was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the
Supreme Court of the United States or that the state
court adjudication resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceeding. Accordingly, petitioner’s grounds for relief
should be denied.
C. Failure to Object to Improper Testimony
In his next ground for review, petitioner alleges
counsel failed to object to improper hearsay and opinion testimony from petitioner’s wife. Petitioner claims
counsel failed to object to improper hearsay, confrontation, and opinion testimony from petitioner’s wife that
her therapist told her petitioner had “control issues”
and that the abuse went on for so long because of his
control and the complainant’s sympathy.
Here, counsel spent hours in preparation with the
two witnesses to attack, impeach and question the
credibility of the complaining witness and petitioner’s
wife only to find out the witnesses had lied and would
continue to lie if put on as witnesses. See Counsel’s
Supplemental Affidavit, 13 SHCR at 152-53 (docket
entry no. 10-13 at 154-155). Counsel then realized petitioner had also lied to him. Id. At the time of the
testimony, however, counsel could have reasonably believed he had sufficient rebuttal testimony to overcome

App. 32
any inferences drawn as a result of the questionable
testimony. “There is a strong presumption that counsel’s conduct falls within a wide range of reasonable
professional assistance.” Woodward, 580 F.3d at 329.
“[C]ounsel’s performance need not be optimal to be reasonable.” Murphy, ___ F.3d ___, 2018 WL 4042363.
Given petitioner’s involvement in the failure of counsel’s planned trial strategy in this case, petitioner has
failed to show counsel’s performance was deficient for
believing him.
While the complained of testimony may have been
inadmissible hearsay, counsel had a trial strategy to
impeach petitioner’s wife on all aspects of her testimony which would have opened the door to issues including petitioner’s alleged manipulation of his wife
and the complaining witness. At the state habeas hearing, counsel admitted that with the benefit of hindsight, he would have made the objection. However,
counsel’s conduct is not judged based on hindsight. A
fair assessment of an attorney’s performance requires
that the distorting effects of hindsight be eliminated
and requires an evaluation of the conduct from counsel’s perspective at the time. Strickland, 466 U.S. at
691. As explained in the preceding section, a reasonable effective defense attorney could pursue counsel’s
strategy at issue in this case. See Pape, 645 F.3d at 29091.
The Court of Criminal Appeals could have reasonably implicitly found that counsel’s alleged failure to
object was reasonable under Strickland’s objectively
reasonableness test for counsel’s performance. “The

App. 33
reasonableness of counsel’s actions may be determined
or substantially influenced by the defendant’s own
statements or actions.” Strickland, 466 U.S. at 691.
“[W]hen a defendant has given counsel reason to believe that pursuing certain investigations would be
fruitless or even harmful, counsel’s failure to pursue
those investigations may not later be challenged as unreasonable.” Id. Accordingly, the court did not unreasonably apply the Strickland standard when implicitly
concluding counsel had not acted deficiently in this regard. Therefore, petitioner has failed to show counsel
was deficient in his performance or that the implicit
findings of the Court of Criminal Appeals were unreasonable determinations.
Further, in light of the strong evidence against
him, petitioner has failed to demonstrate he was prejudiced by counsel’s conduct. Again, counsel was unaware of the planned perjury of his defense witnesses
until the middle of trial. While the introduction of the
allegedly improper testimony might have given the
jury additional reasons to find him guilty and a different result is conceivable, petitioner has failed to show
there was a reasonable probability of a different result
in this case. The Court of Criminal Appeals could have
reasonably found petitioner would have been convicted
of the charged offense without the additional testimony because of the other testimony in the record.
Thus, petitioner has failed to satisfy his burden regarding prejudice.
Petitioner has failed to demonstrate he is entitled
to relief with respect to the state court’s determination

App. 34
that trial counsel’s performance was constitutional. Petitioner has failed to show counsel’s performance was
either deficient or prejudicial. Petitioner has failed to
show either that the state court adjudication was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the
Supreme Court of the United States or that the state
court adjudication resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceeding. Accordingly, petitioner’s grounds for relief
should be denied.
D. Failure to Argue Evidence was Admissible
In his final ground for review, petitioner alleges
that counsel failed to argue to the court that the evidence regarding the complainant’s prior sexual relationship with her boyfriend, J.D. Mull, was admissible
based on petitioner’s constitutional rights to confrontation and cross-examination and because the State
had opened to the door to it. Petitioner argues counsel
wanted to impeach the complaining witness’s testimony on direct examination that she did not have sex
with anyone before petitioner, including Mull. According to petitioner’s argument, if she denied a previous sexual relationship when asked about it on
cross-examination, he was prepared to call witnesses
to impeach her and testify that petitioner tried to prevent her from being sexually active, suggesting a possible motive for the witness to falsely accuse petitioner.

App. 35
This issue was not addressed on appeal because
it was not properly preserved. However, petitioner’s
argument is without the existence of any underlying
admissible evidence in the record to impeach the witness’s statement because the strategy at the time was
based, unknowingly, on the witnesses’ plan to commit
perjury. Petitioner only assumes such evidence existed
based on the actions and reactions of the prosecution.
However, petitioner has failed to show any actual evidence existed to impeach the witness.
The state habeas trial court made the following
findings regarding this issue:
82. This particular IAC allegation appears
based on the premise that admissible evidence existed prior to trial, or came to light
during trial, that would have impeached
L.G.’s testimony denying any prior sexual relations with anyone, including her boyfriend,
J.D. Mull.
83. Applicant’s argument contains two inferences that are not supported in the instant
habeas record: (1) that impeachment evidence
in some admissible form existed affirmatively
demonstrating that L.G. and her boyfriend,
J.D. Mull, did have a sexual relationship prior
to, or at the time of, L.G.’s sexual abuse outcry;
and (2) that trial counsel had witnesses he
could call to impeach L.G. on this particular
matter, and further testify applicant tried to
prevent L.G. from being sexually active. [Supporting Brief p. 23]

App. 36
84. Trial counsel’s uncontested testimony at
the evidentiary hearing establishes he had
no additional defense witnesses after he refrained from calling Allen Dukes and Chuck
Hammock upon learning of their intent to
present fabricated testimony to the jury.
[Supp.RR38]
85. Applicant’s legal premise here asserts
“[e]vidence of the complainant’s previous
sexual behavior is admissible when its exclusion would violate the accused’s constitutional
rights to confrontation or due process.”
[Supp.Br.23-24]
86. While applicant points to the fact that
L.G. had denied any previous sexual relations
with anyone, including Mull, on direct examination [Supp.Br.25], applicant does not direct
the Court’s attention to where in the habeas
record there is evidence that L.G. and Mull
had indeed established a sexual relationship
prior to, or at the time of, L.G.’s sexual abuse
outcry on September 21, 2009.
87. The authority cited on pages 24-25 of
applicant’s Supporting Brief concern cases
where evidence of the complainant’s relationship or sexual encounter with men other than
the defendant did exist, but for whatever reason, the defendant was prevented from presented said evidence at trial; whereas, in the
instant habeas record, no such evidence appears, nor is there any showing such evidence
was available to trial counsel from some

App. 37
source, including L.G., prior to, or during,
trial.
88. The emphasized-portion of the following
assertion [emphasis by this Court] appearing
in applicant’s Supporting Brief [p.25] – “The
exclusion of testimony regarding L.G.’s sexual
relationship with Mull violated applicant’s
Sixth Amendment right to cross-examine and
confront L.G., which trump Rule 412[.” – assumes a fact [L.G.’s sexual relationship with
Mull] the existence of which has no evidentiary support in the instant habeas record.
89. Applicant’s position in IAC allegation (5)
is that, because the Confrontation Clause of
the Sixth Amendment has been interpreted to
give applicant a right to “present a defense,”
and to cross-examine adverse witnesses to
expose a witness’s partiality, bias, and motivation to testify, trial counsel was entitled to provide the jury with L.G.’s testimony regarding
her sexual relationship with Mull.
90. While applicant presents a proper IAC
claim regarding counsel’s failure to present a
Confrontation Clause argument in attempting to cross-examine L.G. regarding her sexual relationship with J.D. Mull, and it is
uncontested that the habeas record supports
the fact that trial counsel did not present the
Court with said argument, applicant fails to
submit evidence supporting the existence of
the fact that L.G. and Mull did indeed have
a sexual relationship prior to, or at the time
of, L.G.’s outcry, in order to demonstrate

App. 38
applicant was actually harmed by counsel’s
failure to raise said argument. See Ex parte
McCain, 67 S.W.3d 204, 209 n.10 (Tex. Crim.
App. 2002) (“Appellant properly made a claim
of an involuntary/unintelligent plea but failed
to offer evidence at the habeas hearing to support it. Without any allegation or evidence of
actual harm, this Court cannot grant habeas
relief on an abstract proposition of law.”)
10 SHCR at 53-56 (docket entry no. 10-10 at 54-57).
As previously stated, petitioner has failed to show
any actual evidence of a sexual relationship between
the complaining witness and Mull existed to impeach
the witness. Petitioner’s argument calls for speculation
about evidence not before the state habeas court. However, federal habeas review under 2254(d)(1) “is limited
to the record that was before the state court that adjudicated the claim on the merits.” Pinholster, 563 U.S.
at 181. Accordingly, petitioner has failed to show the
state court’s determination that counsel’s conduct was
not deficient performance was contrary to, or involved
an unreasonable application of, clearly established federal law, as determined by the Supreme Court of the
United States or that the state court adjudication resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding.
Further, petitioner has failed to show how he was
prejudiced by this alleged deficient conduct. Habeas
counsel’s argument is premised on having witnesses
to provide competent testimony regarding the victim’s

App. 39
sexual activity at the time of the outcry statement.
However, this argument is based on the prospective
witnesses’ plan to commit perjury. Thus, there was no
evidence in the record, or even available, to impeach
the victim’s denial of a sexual relationship with her
boyfriend. As previously stated, federal habeas review
is limited to the record before the state court that adjudicated the claim on the merits. See Pinholster, 563
U.S. at 181. Thus, the Court of Criminal Appeals could
have reasonably concluded petitioner failed to show
prejudice with respect to this claim.
Petitioner has failed to demonstrate he is entitled
to relief with respect to the state court’s determination
that trial counsel’s performance was constitutional.
Petitioner has failed to show counsel’s performance
was either deficient or prejudicial. Petitioner has failed
to show either that the state court adjudication was
contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the
Supreme Court of the United States or that the state
court adjudication resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceeding. Accordingly, petitioner’s ground for relief
should be denied.
Conclusion and Order
After careful review and consideration of all of
petitioner’s grounds for relief presented in this petition, the court finds petitioner’s grounds for review fail

App. 40
to state a claim warranting federal habeas relief. Petitioner has failed to show either that the state court
adjudication was contrary to, or involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States
or that the state court adjudication resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the
state court proceeding. Accordingly, petitioner’s grounds
for relief should be denied and dismissed. It is therefore
ORDERED that the above-styled petition for writ
of habeas corpus is DENIED and DISMISSED.
So Ordered and Signed
Sep. 23, 2018
/s/ Ron Clark
Ron Clark, Senior District Judge

App. 41
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
4/1/2015
DUKES, SHANNON DALE
Tr. Ct. No. 10-08423-A
WR-81,845-01
This is to advise that the Court has denied without
written order the application for writ of habeas corpus.
JUDGE YEARY DISSENTED; JUDGE NEWELL
DISSENTED
Abel Acosta, Clerk

App. 42
IN THE CRIMINAL DISTRICT COURT
OF JEFFERSON COUNTY, TEXAS
EX PARTE

* WRIT NO. 10-08423-A
*
SHANNON DALE DUKES * [CCA NO. WR-81,845-01]
SUPPLEMENTAL FINDINGS, CONCLUSIONS,
AND RECOMMENDATION FOLLOWING
ARTICLE 11.07 EVIDENTIARY HEARING;
AND TRANSMITTAL ORDER
(Filed Jan. 20, 2015)
PRESENT ABATEMENT MATTER
On September 24, 2014, the Court of Criminal Appeals [“CCA”] issued an abatement order in the instant
habeas proceeding, directing this Court to conduct a
live hearing allowing trial counsel to respond in detail
to applicant’s five (5) allegations of constitutionally ineffective assistance.
Following the evidentiary hearing, this Court was
further directed to enter additional findings of fact and
conclusions of law, to supplement the Court’s initial
findings and conclusions entered July 16, 2014, as to
whether the performance of trial counsel, James R.
Makin, was deficient and, if so, whether his deficient
performance prejudiced applicant’s defense.
On November 21, 2014, the Court conducted the
evidentiary hearing at which trial counsel was the only
witness called to testify by either party.

App. 43
Although applicant appeared in person along with
his well-prepared habeas counsel, Mr. Josh Schaffer,
applicant did not testify.
A single volume of reporter’s record [hereinafter
“Supp.RR”] was transcribed and forwarded to this
Court to assist it in entering these supplemental findings and conclusions.
ATTORNEY-CLIENT-PRIVILEGE
OBJECTION OVERRULED
As a preliminary matter, and for purposes of clarification to all participants, the Court had formally
overruled applicant’s attorney-client privilege objection, relating to the scope of the Court’s order directing
trial counsel to submit a responsive affidavit to applicant’s IAC claim. Applicant renewed this objection
prior to eliciting trial counsel’s testimony at the November 21, 2014, evidentiary hearing.
The Court finds the issue firmly settled based on
the following observation in State v. Thomas, 428
S.W.3d 99, 106 (Tex. Crim. App. 2014), in which the
Court of Criminal Appeals affirmed the appellate
court’s reversal of a trial court’s grant of a new trial “in
the interest of justice” absent defense counsel’s submission of an otherwise valid legal claim: “When
counsel faces an ineffective-assistance claim, the attorney-client privilege is waived, and trial counsel has the
opportunity to explain his actions.”

App. 44
The Thomas-Court also agreed with the State’s argument that it is “a miscarriage of justice to grant a
new trial on the basis of evidence that the defense
chose not to introduce, especially when defense counsel
[during the motion-for-new-trial hearing] immunized
himself from testifying about his strategy [by refusing
to answer the State’s question asserting attorneyclient privilege] by explicitly declining to allege ineffective assistance of counsel.” Id. at 106-107.
JUDICIAL NOTICE
This Court judicially notices the contents of its file
in the underlying case, Trial Cause 10-08423; the contents of the trial record [clerk’s and reporter’s] in said
cause; the contents of the clerk’s file in the instant habeas proceeding, No. 10-08423-A; the Thirteenth Court
of Appeals’ unpublished memorandum opinion in applicant’s direct appeal, Dukes v. State, No. 13-11-00434CR, 2012 WL 3041336 (Tex. App. - Corpus Christi
July 26, 2012, pet. ref ’d) (mem. op., not designated for
publication); the contents of the supplemental clerk’s
record in the present abatement matter; and the supplemental reporter’s record from the November 21,
2014, evidentiary hearing.
Additionally, this Court may occasionally rely on
its personal recollection of certain facts and circumstances which occurred during the course of applicant’s
trial in the underlying case, and will note herein when
it is doing so.

App. 45
LAW APPLICABLE TO THE CASE
A. Ineffective Assistance of Counsel
To obtain habeas relief for an IAC claim, the applicant must meet the two-prong standard established
in Strickland v. Washington, 466 U.S. 668, 687 (1984).
Under the first prong, the applicant must demonstrate, by a preponderance of the evidence, that counsel’s performance was deficient, meaning that his
assistance fell below an objective standard of reasonableness. Id. at 687-688, 694.
If applicant demonstrates deficient performance
by his counsel, under the second prong of Strickland,
applicant must then show resulting prejudice, also by
a preponderance of the evidence. Id. at 694.
This showing of prejudice requires applicant to establish a reasonable probability that, but for counsel’s
deficient performance, the result of the proceeding
would have been different. Id.
Put another way, to establish prejudice in a noncapital trial setting, the applicant must show that
“there is a reasonable probability that, absent the errors, the factfinder would have had a reasonable doubt
respecting guilt.” Id. at 695.
Pertinent to the IAC claim in this case is the
well-recognized deficient performance-construct that
“[s]trategic choices made after thorough investigation
of the law and facts relevant to plausible options are
virtually unchallengeable.” Id. at 690.

App. 46
Along the same line, “[a] conscious and informed
decision on trial tactics and strategy cannot be the basis of constitutionally ineffective assistance of counsel
unless it is so ill chosen that it permeates the entire
trial with obvious unfairness.” Pape v. Thaler, 645 F.3d
281, 291 (5th Cir. 2011) (internal quotations and citations omitted).
B. Law on Lesser Included Offense Instructions
Texas Code of Criminal Procedure Article 37.09(1)
provides that an offense is a lesser included offense if
“it is established by proof of the same or less than all
the facts required to establish the commission of the
offense charged.”
In the “Royster-Rousseau” line of cases, the Court
of Criminal Appeals established a two-step analysis for
determining when a trial judge should submit lesser
included offense instructions requested by the defendant in the charge to the jury. See Grey v. State, 298
S.W.3d 644, 645 (Tex. Crim. App. 2009).
In Hall v. State, 225 S.W.3d 524, 525, 535 (Tex.
Crim. App. 2007), the Court of Criminal Appeals
adopted the “cognate pleadings approach,” to the exclusion of all other approaches, as the first step in the
Royster-Rousseau analysis for determining whether
the allegation of a greater offense includes a lesser offense. See also Ex parte Watson, 306 S.W.3d 259, 273,
273 n. 19 (Tex. Crim. App. 2009) (opn. on reh’g) (citing
to Hall, 225 S.W.3d at 526, CCA in n. 19 “emphatically”
rejects more liberal “cognate evidence” approach,

App. 47
which includes facts adduced at trial in its lesser included analysis.) (internal quotation marks omitted)
Under the cognate pleadings approach, this first
step in determining whether an offense is a lesser included offense of the greater alleged offense is a question of law because it does not depend on the evidence
to be produced at trial; therefore, this first step is “capable of being performed before trial by comparing the
elements of the offense as they are alleged in the indictment or information with the elements of the potential lesser-included offense.” Hall, 225 S.W.3d at
535-536.
“To the extent that a continuous-sexual-abuse indictment alleges certain specific offenses [CCA here referring specifically to those predicate-offenses listed
under Subsection (c) of § 21.02],” said specific offenses
alleged in the indictment “will always meet the first
step of the Hall analysis.” Soliz v. State, 353 S.W.3d
850, 854 (Tex. Crim. App. 2011) (emphasis in original).
The second step in the Royster-Rousseau analysis
requires examining all the evidence presented at trial
to determine if some evidence exists that would permit
a rational jury to find that, if the defendant is guilty,
he is guilty only of the lesser offense. Hall, 225 S.W.3d
at 536; Rousseau v. State, 855 S.W.2d 666, 673 (Tex.
Crim. App. 1993).
“The purpose of the second step is to ensure that
the lesser-included offense is a ‘valid, rational alternative’ to the charged offense. [T]here must be some evidence directly germane to the lesser-included offense

App. 48
for the finder of fact to consider before an instruction
on a lesser-included offense is warranted. Anything
more than a scintilla of evidence entitles the defendant
to the lesser charge. . . . However, such evidence cannot
be mere speculation – it must consist of affirmative evidence that both raises the lesser-included offense and
rebuts or negates an element of the greater offense.”
Wortham v. State, 412 S.W.3d 552, 557-558 (Tex. Crim.
App. 2013) (footnotes of supporting authority omitted).
PERTINENT PRETRIAL PROCEEDINGS –
JUNE 2011 JURY TRIAL
A. Trial-Amendment of Indictment and
Pretrial Article 38.37 Discussion
1. Applicant was indicted for Continuous Sexual
Abuse of Young Child or Children [hereinafter “Continuous Sex Abuse], under Texas Penal Code § 21.02, an
offense which became effective on September 1, 2007.
2. Under § 21.02(b), a defendant may be convicted of
Continuous Sex Abuse when he commits two or more
“acts of sexual abuse” [see the predicate offenses listed
under § 21.02(c)] during a period that is thirty or more
days in duration. Id. § 21.02(b)(1), (c).
3. Additionally, a conviction under § 21.02 can be sustained only if the State proves that the alleged childvictim, or child-victims, were younger than 14 years of
age at the time of the commission of each act of sexual
abuse alleged in the indictment. Id. § 21.02(b)(2).

App. 49
4. The trial record establishes that the childcomplainant, L.G., was born March 24, 1994, and had
been applicant’s step-daughter since L.G.’s biological
mother, Peggy, married applicant on May 19, 1997, at
which time L.G. was almost 3 years of age. [3RR30-32]
5. The trial record establishes that L.G. was 17 years
of age when she testified at trial [on June 14, 2011],
and that L.G. was 15 years of age when she made her
outcry [of applicant’s Continuous Sex Abuse] to her
mother, Peggy Dukes, on September 21, 2009. [3RR61,
123]
6. The trial record establishes that L.G. turned 13
years of age on March 24, 2007, and turned 14 years of
age on March 24, 2008. [3RR125]
7. The trial record establishes that prior to the start
of the State’s case-in-chief, trial counsel pointed out to
the Court the indictment charged applicant with certain acts of criminal conduct which violated § 21.02
committed prior to September 1, 2007, the effective
date of the statute; which counsel characterized as an
ex post facto violation on the part of the State. [3RR6]
8. The trial record establishes some initial confusion
existed on the part of the State and the Court regarding trial counsel’s complaint of the State’s flawed indictment language, with both the State and the Court
initially believing that the indictment was worded correctly, based on the evidence the State anticipated presenting to the jury and on the fact that the words “on
or about” preceded the book-end dates alleged, to-wit:
“on or about the 24th DAY OF MARCH, TWO

App. 50
THOUSAND AND SIX, and continuing through on or
about the 23rd DAY OF MARCH, TWO THOUSAND
AND EIGHT, . . . ,” and that any confusion engendered
by the dates alleged could be cured by an appropriately
worded instruction to the jury. [3RR6-8; 14-15]
9. The trial record establishes trial counsel’s repeated and specific objections to the indictment’s continuous-abuse dates [quoted above in Finding 8]
appear in the resulting, and lengthy, colloquy among
the three participants [the Court and both counsel],
and which eventually resolved the matter, to-wit:
[3RR8-10; 11-12; 12-16]
[Trial Counsel]: Then, Your Honor, my
further objection is with respect to the 18
month period before the effective date of the
statute. It’s our position that there is no offense on an on or about date that could be included since it wasn’t against the law then.
That would be irrelevant, highly prejudicial
and improper, for one, just the reading of the
indictment as it stands now.
THE COURT: There is no – that proof of
wrongdoing or criminality against the defendant alleged to have occurred prior to September 1st, 2007, you’re objecting to?
[Trial Counsel]: Yes, Your Honor. Anything prior to that. And in the language in the
indictment, they had on or about the 24th day
of March, 2006. We feel that that’s improper
and highly prejudicial that it even gets in
front of the jury.

App. 51
THE COURT: Number one, I don’t
think it would sustain a conviction if it solely
relies on that evidence; that is, evidence prior
to September 1st, 2007. That, I think, is a
foundation of law. However, could there be
other basis under the law for the entry of such
evidence other than to support the indictment’s elements?
[State’s Attorney]: Yes, Your Honor. I
didn’t mean to interrupt.
************
[The State and the Court then segued to the
Article 38.37 matter; see trial facts on
Art. 38.37 matter set out below in Finding
10]
************
[Trial Counsel]: [attempting to refocus
colloquy away from Art. 38.37 matter] Your
Honor, this is a narrowing statute and under
aggravated sexual assault, I can understand
where just a whole everything (sic) probably
come in. However, under this narrow statute,
we have this limitation period; and it’s our position that any facts need to be within that
limitation period to prove this offense as
they’ve charged him. I believe the statute itself speaks to that issue. [3RR9-10]
************
[Trial Counsel]: Your Honor, I’m aware
of all of that [admissibility of Art. 38.37 evidence of extraneous offenses or acts] and my

App. 52
concern here is we have things that are before
the effective date of the statute and that’s my
concern and I’m telling you now. [3RR11]
************
[Trial Counsel]: . . . , Your Honor, I’m
still concerned. In the reading of the indictment, I think it’s going to be confusing to the
jury and prejudicial to my client if they read
on or about the 24th day of March, 2006, and
continuing through on or about and they have
the 23rd day of March, 2008.
THE COURT:

I understand.

[Trial Counsel]: They are telling the
jury to consider this period before the enactment of the law, and I think it’s wrong.
[3RR11-12]
************
[It is at this point the Court first suggests to
the State that it amend the indictment
language to omit any dates prior to Sept.
1, 2007]
************
[State’s Attorney]: I was going to say
this: If Mr. Makin agrees, can make an oral
amendment and make it the 1st of September
of 2007 so that there is no confusion.
THE COURT:

Do you agree to that?

[Trial Counsel]: We would agree to that,
Your Honor. . . . [3RR13]
************

App. 53
THE COURT: All right. Then the date
shall be changed from the beginning date of
on or about the 24th day of March, 2006, to on
or about the 1st day of September, 2007; is
that correct?
[State’s Attorney]: Yes, Your Honor.
THE COURT:

And without objection.

[Trial Counsel]: Well, Your Honor, I still
object to the on or about language on the 1st
day of September of 2007 since the offense
they are charging didn’t exist before that date.
THE COURT: Well, I think he’s got you
on a technicality there from on or from the 1st
day of March – I’m sorry – 1st day of September, 2007, and continuing through on or about
March 23rd. Is that what you want?
[State’s Attorney]: Well, no, because on
or about can also mean within the few days
after September 1st; and I don’t think the witness can testify that he actually committed
that act on September 1st because she won’t
recall that.
THE COURT: Well, we have to couch
language that will preclude them from considering dates prior to September 1st. So, how
would you do that?
[State’s Attorney]: Well, I think that the
– I think the on or about language needs to be
because it can encompass any time within
September or after September 1st.

App. 54
THE COURT: But it can encompass
August of ’07. [emphasis added]
[State’s Attorney]: Well, then, I think
that there is no need to change the on or about
language.
THE COURT:
motion then?

So, you’re not making a

[State’s Attorney]: No. I’m not removing
– I’m not making a motion to change it to on
September 1st. I think the on or about September 1st of September (sic) 2007 is adequate.
THE COURT: I don’t think so. I mean,
we’re not going to spend a lot of time on this,
but I don’t think so. Because can they just as
well consider evidence prior to September 1st
under that language and how does that –
[State’s Counsel]: I think simply with
an instruction from the Court that can be
done.
THE COURT: What is my instruction,
for them to avoid the wording of the indictment?
[State’s Attorney]:

I think –

THE COURT: No. Let’s clarify the indictment. If you’re going to change it, then
clarify it in light of the statutory enactment.
[State’s Attorney]: Well, we just agreed
that we would change the date from to the 1st
of September of 2007; but I don’t think that

App. 55
there is a need to change the on or about. A
jury instruction can cure that.
THE COURT: I would suggest this,
okay. How about from on or about but after
September 1st? [emphasis added]
[State’s Attorney]: That would be fine. I
mean, because I think that gives them latitude that it could be any date after September
1st.
THE COURT:

Any objection to that?

[Trial Counsel]: No, Your Honor, as written with the inclusion of the words “but after,”
we’re okay. [3RR13-16]
************
THE COURT: All right. The indictment
is therefore amended beginning on line 4 after
the words State of Texas, comma, on or about,
comma, but after the 1st day of September,
comma, 2007, comma and continuing through
on or about the 23rd day of March, 2008.
Agreed?
[Trial Counsel]:
[3RR16]

Agreed, Your Honor.

10. The trial record establishes that during the pretrial indictment-amendment colloquy, quoted above,
there was a brief segue into the matter of “extraneous
offense or bad act” evidence the State anticipated presenting to the jury pursuant to former-Article 38.37,
Texas Code of Criminal Procedure, to-wit: [3RR9-11]

App. 56
[State’s Attorney]: I anticipate that after there is testimony of the conduct between
September 1st, 2007, and the subsequent
date, that I think by that point, think the
State will have been able to establish a common scheme or a plan and previous dealings
between the defendant and the substance
would, therefore, be admissible under Texas
Code of Criminal Procedure 38.37 and a notice
that I was intending to use such evidence was
provided to Mr. Makin. [3RR9]
************
THE COURT: Under Article 38.37 of
the Texas Code of Criminal Procedure, this article applies to a proceeding in the prosecution
of a defendant in an offense under the following provisions of the penal code if committed
against a child under 17 years of age. Chapter
21, sexual offenses for which this continuing
(sic) sexual abuse of a child, albeit it’s misnumbered on the caption of the indictment
but the title and the body of the indictment
support the elements of continuing (sic) sexual abuse of a child under Section 21 of the
Texas Penal Code. So, this article then would
apply to those – such a crime as this one.
Section 2 of Article 38.37 goes on to state
notwithstanding Rules 404 and 405 of the
Texas Rules of Evidence, evidence of other
crimes, wrongs, or other acts committed by
the defendant against the child who is the victim of the alleged offense shall be admitted for
its bearing on relevant matters including the

App. 57
state of mind of the defendant and the child
and the previous and subsequent relationship
between the defendant and the child.
So long as it fits those elements, the Court
shall admit it. [3RR10-11]
************
THE COURT: Well, I think what should
be done in light of the Court’s experience under the law is that when such evidence is admitted, I think maybe an instruction to the
jury might be in order for them to consider it
for certain purposes only and ensure that for
the purposes of proving the elements of the indictment, only such proof supporting dates of
occurrences from September 1st, ’07, to on or
about March 23rd, 2008, can be used for the
supporting of the elements of the indictment
and proof of matters prior to that date or after
that date can be used for their deliberations
only under the restrictions of Article 38.37
and for no other purpose. If you want that instruction, I think that is probably appropriate.
[Trial Counsel]: You had anticipated my
next request. We would be asking for that instruction[.] [3RR11]
11. The Court notices the fact that at the time the
underlying case was tried, beginning on June 13, 2011,
neither this Court nor the parties had the benefit of the
detailed statutory analysis, including legislative intent, undertaken by the CCA in either Soliz v. State,
353 S.W.3d 850 (Tex. Crim. App. 2011) [handed down

App. 58
on October 5, 2011], or Price v. State, 434 S.W.3d 601
(Tex. Crim. App. 2014), after determining subsection
(e)(3) [Soliz] and subsection (c) [Price] of § 21.02 to be
ambiguous.
12. The trial record establishes, based on the pretrial
colloquy reproduced above, that at least part of trial
counsel’s strategy for defending applicant was to narrow the “window of criminal culpability” by which the
jury would be authorized to convict applicant under
§ 21.02, to-wit:
(a) by having the alleged predicate acts of
sexual abuse restricted to only those committed on or after September 1, 2007, the date
§ 21.02 went into effect; and,
(b) by having the Court modify the indictment’s “on or about” wording to insert the additional restrictive averment “but after,”
thereby strictly limiting applicant’s criminal
culpability to acts of sexual abuse committed
between the amended book-end dates September 1, 2007 and March 23, 2008, but not
before September 1, 2007.
13. The trial record establishes that narrowing the
indictment’s wording to its final form resulted in narrowing the time-frame the jury was authorized to convict applicant under § 21.02 [of two or more acts of
sexual abuse during a 30-day period or more] to the
approximately six-month-and-twenty-three-day-period
from September 1, 2007 through March 23, 2008.

App. 59
14. The trial record establishes that, prior to the start
of testimony, the Court, the State’s Attorney, and trial
counsel were aware of the State’s intent to introduce,
in its case-in-chief, extraneous-offense or “bad act” evidence pursuant to Article 38.37, Texas Code of Criminal Procedure, which authorized admission of such
evidence against a defendant “[n]otwithstanding Rules
404 and 405, Texas Rules of Evidence[.]”
SUPPLEMENTAL FINDINGS
AND CONCLUSIONS
A. Failure To Request Lesser Included Offenses
Application of IAC Law and Lesser Included
Offense Law to Facts in Habeas Record
15. In making its supplemental findings relating to
Ground 1, IAC allegation (1), the Court has reviewed
the entire habeas record, including the underlying
trial record, in light of the applicant’s argument and
authorities appearing on pages 8-13 of his Brief In
Support of Application For Writ of Habeas Corpus, filed
May 19, 2014 [hereinafter “Supporting Brief ”], and
particularly in light of habeas counsel’s closing remarks and detailed clarifying responses to the Court’s
questions toward the end of the November 21, 2014,
evidentiary hearing, appearing in the Supp.RR at pp.
125-147.
16. The habeas record establishes, based on the affidavits supplied by trial counsel, and his responses elicited at the November 21, 2014, evidentiary hearing,
that trial counsel did not request that any lesser

App. 60
included offenses be submitted to the jury in the
Court’s guilt-innocence phase instructions, nor did
trial counsel object to the absence of any such lesser
included instructions. [Supp.RR72]
17. The habeas record establishes that trial counsel
did not discuss with applicant what options, if any,
were available to him regarding requesting lesser included offense instructions in the guilt-innocence
phase jury instructions. [See Supp.RR57-58]
18. For purposes of addressing applicant’s Ground 1,
IAC allegation (1), the Court’s review of the trial record
has focused particularly on testimony of the complainant, L.G. [3RR121-163], on testimony of L.G.’s mother,
Peggy Dukes [3RR30-120], and on testimony of the
Sexual Assault Nurse Examiner “[S.A.N.E.”], Brenda
Garison [3RR163-181].
19. The habeas record establishes the particular offenses of aggravated sexual assault, sexual assault,
and indecency by contact were each suggested by applicant as the available lesser included offenses of the
greater included Continuous Sex Abuse offense, for
which applicant had been indicted. [Supporting Brief
pp. 8, 910; Supp.RR68-71]
20. The habeas record establishes applicant’s particular assertion that the trial record contains “more than
a scintilla of evidence from which the jury rationally
could have found that applicant was guilty of one or
more” of the three suggested lesser included offenses;
the bases for this assertion appearing in applicant’s
supporting brief, to-wit: [Supporting Brief pp.10-11]

App. 61
“Primarily, the jury could have believed
that applicant committed one or more acts of
sexual abuse but also believed that L.G. already was 14 years old when it began based
on Brenda Garrison’s [sic] testimony that L.G.
stated that the sexual abuse began after Hurricane Ike in September of 2008, when she already was 14 years old.”
If the jury so believed – or had a reasonable doubt as to whether more than two acts of
abuse occurred during a period that was more
than 30 days in duration before she turned 14
– it would have convicted him of indecency by
contact or sexual assault of a child between
the ages of 14 and 17, or both.
Alternatively, the jury rationally could
have believed that applicant committed either
indecency or aggravated sexual assault of a
child under the age of 14, but not both, in
which case he was not guilty of continuous
sexual abuse.
In another scenario, the jury rationally
could have believed that he committed indecency before L.G. turned 14 but that he did not
commit sexual assault until after she turned
14, in which case he was not guilty of aggravated sexual assault and, by extension, not
guilty of continuous sexual abuse.
21. The habeas record establishes that the two predicate offenses set out in applicant’s indictment alleged
Indecency by Contact by “engaging in sexual contact
by touching part of the genitals of [L.G.], . . . with his

App. 62
hand,” and Aggravated Sexual Assault by “causing the
penetration of the mouth of [L.G.], . . . with his male
sexual organ” and at the time of each act of sexual
abuse [L.G.] “was a child younger than 14 years of age.”
[emphasis added]
22. Thus, examining the allegations pleaded in the
indictment charging applicant with Continuous Sex
Abuse in light of the pertinent holdings in Hall and
Soliz, the Court concludes that of the four lesser included offense scenarios suggested by applicant [see
Finding 20 above], the only scenario that meets the
first step of the Hall analysis is contained in the third
paragraph, which suggests a conviction for either the
alleged predicate offense, Indecency With a Child, by
applicant’s hand touching part of L.G.’s genitals, committed within the time frame of the indicted offense, or
a conviction for the alleged predicate offense, Aggravated Sexual Assault, by penetration of L.G.6’s mouth
with applicant’s male sexual organ, committed within
the time frame of the indicted offense, but not a conviction for both.
23. Again applying the first step of the Hall analysis
to the allegations contained in the Continuous Sex
Abuse indictment, the Court further concludes applicant was not entitled to jury instructions on the suggested lesser included offenses of Indecency With a
Child, Aggravated Sexual Assault, or Sexual Assault
that contain allegations said offenses were committed
after L.G. turned 14 years of age; nor was applicant entitled to jury instructions on the suggested lesser included offenses of Aggravated Sexual Assault or

App. 63
Sexual Assault with either offense alleging the penetration of L.G. female sexual organ by applicant’s male
sexual organ, either before or after L.G. turned 14
years of age; because, under both sets of suggested
lesser included sex-offenses, a conviction for any one of
said suggested lesser included sex-offenses necessitates proof of an additional fact not otherwise required
to establish the commission of the indicted greater included Continuous Sex Abuse offense. See Texas Code
of Criminal Procedure Article 37.09(1); Irving v. State,
176 S.W.3d 842, 845-846 (Tex. Crim. App. 2005).
24. In other words, there is at least one fact necessary
to prove the offense of Sexual Assault (of a Child between the ages of 14 to 17), and the offense of Indecency With a Child (between the ages of 14 to 17) [by
contact]; and the offense of Aggravated Sexual Assault
(of a Child younger than 14 years of age) [by any manner and means other than by causing the penetration
of the mouth of L.G. by applicant’s male sexual organ]
that is not included within the proof necessary to establish the offense of Continuous Sex Abuse of L.G. as
alleged in applicant’s indictment in the underlying
cause. Sorto v. State, 173 S.W.3d 469, 475-476 (Tex.
Crim. App. 2005).
25. As noted above, the trial record contains L.G.’s affirmative testimony which establishes that from September 1, 2007 up to March 23, 2008, the day before
she turned 14 years of age, the repeated acts of sexual
abuse committed by applicant on her consisted of applicant touching L.G.’s “vaginal area” both outside and
inside of her clothes [3RR129, 131], and applicant

App. 64
forcing L.G. to “[p]erform oral sex on him” whereby applicant would “put his penis in [L.G.’s] mouth[.]”
[3RR130, 131]; and L.G.’s affirmative testimony establishes that both of these two alleged acts of sexual
abuse occurred “for more than 30 days duration” for
the entire year L.G. was 13 years of age, which was
within the alleged book-end dates of September 1, 2007
and March 23, 2008. [3RR131-132].
26. The trial record contains L.G.’s affirmative testimony which establishes that it was only after she
turned 14 years of age that applicant began engaging
in sexual intercourse [penetrating her vagina with his
penis]; and there is no evidence in the trial record establishing sexual intercourse [vaginal penetration by
applicant’s penis] between applicant and L.G. occurred
before she turned 14. [3RR133]
27. The trial record contains L.G.’s affirmative testimony which establishes that the last incident of sexual
intercourse [vaginal penetration by applicant’s penis]
perpetrated on her by applicant occurred on September 19, 2009, when L.G. was 15 years of age. [3RR135]
28. The trial record contains L.G.’s affirmative testimony which establishes that other than applicant’s repeated instances of forced sexual intercourse [vaginal
penetration by applicant’s penis] after she turned 14
years of age, L.G. had never engaged in sexual intercourse with anyone, including her subsequent boyfriend, J.D. Mull. [3RR135-137].
29. The portions of Brenda Garison’s trial testimony
pertinent to applicant’s suggested lesser included

App. 65
offenses appear in the trial record, in pertinent part,
as follows: [3RR166-167; 170-171; 177-178]
Q. [State’s Attorney] Okay. And what is the
first thing you do?
A.[Garison] The first thing I’m going to do is
get authorization from Mom to be able to do
the examination; and then I’m going to take
the child in the office, in my office. I’m going
to take a brief history of the incident and letting her explain to me what has happened,
and then we proceed with the physical examination.
Q. Okay. And with regard to [L.G.’s] history,
I mean, it the history of assault, does it affect
what or how you perform your examination?
A. It does. We take her history strictly for diagnosis and treatment. So, the history that
she gives me is going to dictate the type of examination that I’m going to perform.
Q. And what was the history you were given
at that time?
A. She had given me a history that her stepdad had been having sex with her. She said it
had started after Hurricane Ike, and I think
the last time had been four days prior to the
date I saw her.
************
Q. And did [L.G.] provide answers to all of
that stuff?
A.

She did.

App. 66
Q. And what were her answers with regard
to penetration?
A. She said that he had penetrated her female sexual organ but also orally, her mouth.
Q. And did she indicate whether ejaculation
had occurred?
A. Yes. She said in her female sexual organ,
yes.
Q. After you do that, after you get that information, what is the purpose of getting all of
that information?
A. Well, we’re going to get that information
so we know how to proceed with our examination and know what evidence we need to obtain; and then we’re going to go into the exam
room and start our actual examination.
Q. What did you determine from the history
that you had been given?
A. Well, it had been determined that it had
been four days since the last incident. So, I
knew that we were going to be limited as to
what type of evidence I would be obtaining.
So, we did vaginal swabs and vaginal smears;
and we collected blood for DNA.
************
Q.[Trial Counsel] And just going through your
report here, she told you it started after Hurricane Ike?
A.[Garrison] That’s correct.

App. 67
Q.

Do you know when Hurricane Ike was?

A. I don’t. I think it was like in ’08, ’07. I
don’t know.
Q.

September of ’08 maybe?

A.

That might be about right.

30. The portions of Peggy Dukes’ trial testimony pertinent to applicant’s suggested lesser included offenses
appear in the trial record as follows: [3RR75- 77]
Q.[State’s Attorney] I’m showing you what is
marked State’s Exhibit No. 37. Without going
into detail what’s on it, can you recognize it?
A.[Peggy Dukes] Yes, ma’am.
Q. And did you listen to the contents of this
disk?
A.

Yes, I did.

Q.

And is your voice on it?

A.

Yes, it is.

Q.

Is Tori’s voice on it?

A.

Yes.

Q.

And is the defendant’s voice on it?

A.

Shannon’s is too, yes.

Q. Is it a phone call made by the defendant
from the jail?
A.

That’s correct.

App. 68
Q. And when you listened to it, was it a fair
and accurate depiction of the conversation
that occurred particularly between yourself
and the defendant?
A.

That is correct.

************
Q. Do you recall that his phone call was
made approximately November 18th, 2009,
about ten days after the defendant was rearrested?
A.

That would be about right, yes, ma’am.
[State’s Attorney]:
hibit No. 37.

I re-offer State’s Ex-

Mr. Makin: It was made on November
18th, 2009?
[State’s Attorney]:
say that wrong?

I’m sorry. Yes. Did I

Mr. Makin: The[n] we’d have no objection.
THE COURT:
mitted.

State’s Exhibit 37 is ad-

[State’s Attorney]: May I publish it to
the jurors, Your Honor?
THE COURT:

Yes.

Q.[State’s Attorney] Is there something on her
that’s very, very significant on this recording?
A.

[Peggy Dukes] Yes, there is.

Q. At one point in this conversation when
you’re talking to the defendant, did you say to

App. 69
him that you could have handled if he had an
affair; but you couldn’t that he did it with your
daughter?
A.

Yes, I did say that.

Q.

Did he acknowledge it?

A.

Yes, he did.

Q.

But did he claim that he did it one time?

A.

That is correct.

Q.

And did you say to him, no, it was more?

A.

Yes, I did.

(State’s Exhibit No. 37 played to the jury)
31. For purposes of satisfying the second step in the
Royster-Rousseau analysis, the Court finds the portion
of Brenda Garison’s testimony, set out above in Finding
29, provides no evidence directly germane to either of
the two lesser included alleged predicate offenses that
met the first step of the Hall [and Soliz] analysis, as
determined above in Conclusion 22. Wortham, 412
S.W.3d at 557.
32. For purposes of satisfying the second step in the
Royster-Rousseau analysis, the Court further finds the
portion of Brenda Garison’s testimony, set out above in
Finding 29, does not consist of affirmative evidence
that both raises either of the two lesser included alleged predicate offenses [that met the first step of the
Hall (and Soliz) analysis, as determined above in Conclusion 22] and rebuts or negates an element of the

App. 70
greater included Continuous Sex Abuse offense, as indicted. Wortham, 412 S.W.3d at 558.
33. For purposes of satisfying the second step in the
Royster-Rousseau analysis, the Court finds the portion
of Peggy Dukes’ testimony, set out above in Finding 30,
provides no evidence directly germane to either of the
two lesser included alleged predicate offenses that met
the first step of the Hall [and Soliz] analysis, as determined above in Conclusion 22. Wortham, 412 S.W.3d at
557.
34. For purposes of satisfying the second step in the
Royster-Rousseau analysis, the Court further finds the
portion of Peggy Dukes’ testimony, set out above in
Finding 30, does not consist of affirmative evidence
that both raises either of the two lesser included alleged predicate offenses [that met the first step of the
Hall (and Soliz) analysis, as determined above in Conclusion 22] and rebuts or negates an element of the
greater included Continuous Sex Abuse offense, as indicted. Wortham, 412 S.W.3d at 558.
35. Among the arguments applicant presents in support of his suggested entitlement to instructions on one
or more lesser included offenses is that the jury could
have simply disbelieved one or more portions of L.G.’s
affirmative testimony that established each of the essential elements of the Continuous Sex Abuse allegations. [See e.g., Supp.RR130 – “So, if the jury believed
the nurse, then that would have been a basis to reject
the testimony from the Complainant that everything

App. 71
happened during the time frame alleged in the indictment.”]
In Bignall v. State, 887 S.W.2d 21, 24 (Tex. Crim.
App. 1994), this type of argument was rejected with the
observation that “it is not enough that the jury may
disbelieve crucial evidence pertaining to the greater offense; there must be some evidence directly germane
to a lesser included offense for the factfinder to consider before an instruction on a lesser included offense
is warranted.” See also Sweed v. State, 351 S.W.3d 63,
68 (Tex. Crim. App. 2011) (same).
36. Along these lines, the CCA has repeatedly directed reviewing courts conducting the second step of
the Royster-Rousseau analysis to “examine the entire
record instead of plucking certain evidence from the
record and examining it in a vacuum.” Enriquez v.
State, 21 S.W.3d 277, 278 (Tex. Crim. App. 2000) (citing
Ramos v. State, 865 S.W.2d 463, 465 (Tex. Crim. App.
1993)); Godsey v. State, 719 S.W.2d 578, 584 (Tex. Crim.
App. 1986) (“The Court of Appeals gave a meaning to
appellant’s statement that appellant did not. The
statement cannot be plucked out of the record and examined in a vacuum.”).
37. Citing to Beck v. Alabama, 447 U.S. 625, 634
(1980), applicant suggests that trial counsel’s failure to
secure at least one lesser included offense instruction
for the jury to consider violated applicant’s right to due
process because the jury had no choice but to convict
applicant of the greater Continuous Sex Abuse offense
as indicted “in view of the recorded jail conversation in

App. 72
which applicant admitted that he ‘did it one time’ and
the DNA evidence on L.G.’s sheet, from which he could
not be excluded as a source[,]” quoting the following
from that case: “[P]roviding the jury with the ‘third option’ of convicting on a lesser included offense ensures
that the jury will accord the defendant the full benefit
of the reasonable-doubt standard.” [See Supporting
Brief pp. 11-12]
38. Although this quote from Beck appears directed
to proceedings in death-penalty cases, the pertinent response appears in Moreno v. State, 858 S.W.2d 453, 459
(Tex. Crim. App. 1993), also a death-penalty case, towit:
In every case in which the evidence is sufficient to support a conviction for capital murder, however, it will, a fortiori, support a
conviction for the lesser offense of murder.
This is only to say that murder is conceptually
a lesser included offense of capital murder.
See Article 37.09(1), V.A.C.C.P. But that
acknowledges only half the test. In Cordova[
v. Lynaugh, 838 F.2d 764 (5th Cir. 1988)], the
Fifth Circuit made clear that before it can be
said that failure to submit the lesser included
offense violates due process, the evidence
must be such that “the jury could rationally
acquit on the capital crime and convict for the
noncapital crime.” Id. at 767 (emphasis supplied). Thus, it is not enough that the evidence
would support a conviction for the lesser included offense, as if that were the only offense
the jury was authorized to convict upon. The
record must also present a rational basis for a

App. 73
jury to reject conviction for the greater, capital
offense.
39. Having examined all of the record-evidence presented in applicant’s trial in its proper context, the
Court can find no evidence that would permit a jury
rationally to find that if applicant is guilty, he is guilty
only of either the predicate-offense of Indecency With
a Child, as alleged in the indictment, or of the predicate-offense of Aggravated Sexual Assault, as alleged
in the indictment.
40. L.G. testified that applicant repeatedly committed both alleged predicate-offenses for more than 30
days during the alleged six-month period when she
was only 13 years of age. There is no affirmative record-evidence “directly germane” to the contrary, and no
such evidence that both raises the fact that either
lesser included predicate-offense was committed singularly while at the same time rebutting or negating
the commission of the remaining lesser included predicate-offense.
41. Having examined all of the record-evidence presented in applicant’s trial and having determined applicant was not entitled to have any of his suggested
lesser included offense instructions submitted to the
jury because they fail to meet the two-step RoysterRousseau analysis, including the Hall cognate pleadings approach, the Court finds applicant has failed to
establish that trial counsel rendered objectively unreasonable assistance for having failed to request jury instructions on the suggested lesser included offenses of

App. 74
Indecency With a Child, Sexual Assault, and Aggravated Sexual Assault. See Ex parte Chandler, 182
S.W.3d 350, 356 (Tex. Crim. App. 2005) (“But a reasonably competent counsel need not perform a useless or
futile act, such as requesting a jury instruction to
which the defendant is not legally entitled or for which
the defendant has not offered legally sufficient evidence to establish.”)
B. Failure To Object To “Bad Character,”
“Extraneous Offense/Misconduct," and
“Improper Opinion” Evidence
Application of IAC Law to Facts in Habeas Record
42. This portion of the Court’s supplemental findings
and conclusions address the IAC allegations corresponding to Ground 1, LAC allegations (2), (3), and (4)
to-wit:
(2) Counsel failed to object to testimony that
applicant has bad character. Peggy Dukes testified that applicant had a bad temper, was destructive, had outbursts of rage, and was
controlling and manipulative. The complainant testified that, when applicant gets mad,
he goes on a rampage, punches holes in the
wall, and breaks things.
(3) Counsel elicited and failed to object to
testimony that applicant committed extraneous offenses and specific acts of misconduct.
The State presented evidence that applicant
was arrested twice for violating a protective
order. Counsel elicited that applicant

App. 75
physically abused Peggy numerous times and
hurt a neighbor’s child and destroyed property. The prosecutor elicited that applicant
threatened to kill the complainant’s boyfriend
and his family.
(4) Counsel failed to object to improper opinion testimony from the complainant’s mother
that her therapist told her that applicant had
“control issues” and that the sexual abuse
went on so long because of applicant’s control
and the complainant’s sympathy.
43. In addressing the three IAC allegations set out
above in Finding 42, the Court again notices that prior
to applicant’s trial, the State gave trial counsel timely
notice of its intent to introduce extraneous offense and
misconduct evidence pursuant to Article 38.37, Texas
Code of Criminal Procedure. [See Article 38.37 discussion by the Court and both counsel set out above in
Finding 10]
44. The Court also notices that in enacting Article
38.37, “the Legislature has made its intent to dispense
with certain evidentiary rules clear through [Article
38.37’s] specific language.” Smith v. State, 5 S.W.3d
673, 678 (Tex. Crim. App. 1999) (See id. at n. 10, quoting former-Article 38.37, §2: “notwithstanding Rules
404 and 405, Texas Rules of Criminal Evidence, evidence of other crimes, wrongs, or acts committed by the
defendant against the child . . . shall be admitted”)
(emphasis in original).
45. In addition to the responses contained in trial
counsel’s two affidavits, the contents of which the

App. 76
Court has taken judicial notice, the record from the November 21, 2014, evidentiary hearing contains the following pertinent responses from trial counsel relating
to Ground 1’s IAC allegations (2), (3), and (4):
[Supp.RRpp.32-35; 37-38; 80-82; 88-89; 94-96]
Q.[Habeas Counsel] You testified a moment
ago that you are more of a trial objection lawyer. Tell me what you mean by that?
A.[Trial Counsel] Well, I would have
knowledge beforehand what areas I think
they are going to go into and looking at my big
picture of my entire trial strategy, just because something is objectionable I don’t object
every time.
Q. But would you agree with me that if there
is evidence that is clearly inadmissible and
would be prejudicial to your client and you are
aware of that before trial, that there is a strategic advantage to getting an order in limine
to try to prevent the witness from even uttering that testimony?
A. Well, if you know you have evidence to develop your defense, you might want to let that
in.
Q. I understand that and my question was:
Let’s assume that the evidence is clearly inadmissible and prejudicial to your client.
A.

Uh-huh.

Q. I mean, is that the kind of evidence that
you are going to want a jury to hear about,
generally?

App. 77
A.

Not generally, no.

Q. Okay. So, for the purpose of my question
let’s assume it’s evidence you do not want admitted.
A.

Sure. You should object.

************
Q. Was your strategy in Mr. Dukes’ case to
exclude clearly inadmissible prejudicial testimony to him?
A.

No.

Q. Do you agree that constitutionally effective defense counsel should try to exclude
clearly inadmissible prejudicial testimony?
A. I think it depends on each case individually and the overall trial strategy.
Q. So, it is your position that it can be sound
strategy to not object to clearly inadmissible
prejudicial testimony?
A.

Correct.

Q. Okay. I want to discuss your defensive
theories in this case. In a nutshell tell us what
was your defense?
A. I had witnesses that were going to attack
the complaining witness, her mother and family as liars fabricators. They had lured our client – my client into violating certain things.
Their versions of the stories were all wrong,
pretty much.

App. 78
Q. So, it was your defense that there was no
crime whatsoever, no sexual relationship with
the Complainant that Mr. Dukes did not commit any offense?
A.

That was the beginning defense, yes.

Q. Well, when you say “the beginning defense,” was there another defense going into
the trial?
A. No, one didn’t come up. When I lost the
witnesses, I didn’t have a defense and I
couldn’t go back then and retry the case.
Q. You did not have any defense once you
made the decision mid-trial not to call those
witnesses?
A.

Correct.

Q. And the witnesses, for the record, that
you are referring to are?
A.

Mr. Hammock –

Q.

Let me ask the question.

A.

Okay. Sorry.

Q. Mr. Dukes’ brother, Allen Dukes; and his
friend, Chuck Hammock, correct?
A.

Yes.

Q. Those were the two witnesses that you intended to call in the defense to challenge the
credibility of the State’s witnesses?
A.

Yes.

************

App. 79
Q. And isn’t it black letter law that it is impermissible to try a defendant as a person of
bad character or a criminal, generally?
A.

Yes.

Q. And isn’t it black letter law that the character of a defendant in a criminal case is not
admissible unless it is offered by the defendant or by the prosecution to rebut that?
A.

Correct.

Q. That’s Rule 404(a)(1)(A), okay. So, we can
agree that Peggy’s testimony, which I summarized moments ago, was clearly inadmissible,
wasn’t it?
A.

Clearly.

Q. When it was offered. And you knew that
at the time, didn’t you?
A.

Yes.

Q. And you did not object to any of it, did
you?
A.

I did not object.

Q. And if you had objected and Judge Stevens had sustained that objection and the jury
never would have heard any of that testimony
about his bad character, then would you agree
with me that that would not have been an issue you would have needed Allen Dukes or
Chuck Hammock to address, would it have
been?

App. 80
A.

Correct, but it would – well, correct.

Q. You have stated in your affidavits that
your plan, your strategy, was to use those witnesses to rebut that harmful testimony from
the State’s witnesses, correct?
A.

More than rebut; to show they were lying.

Q. Well, but that’s still a judgment call the
jury needs to make?
A.

Sure.

Q. I mean, just because the brother and the
friend come in and say he didn’t have a bad
temper does not make it so, does it? I mean,
that’s a subjective call?
A.

Sure.

************
Q. But you can agree with me that had you
excluded that testimony either by a motion in
limine or by objection when it was offered,
that would not have been an issue you would
have needed to use the brother, Allen, and the
friend, Chuck, to clean up?
A. Well, my plan with Mr. Hammock was to
attack both Peggy and the complaining witness and I, frankly, wanted the doors open.
************
Q. And as you look at it more carefully, you
would agree with me that was not a sound decision not to object to Peggy’s testimony about
his character, was it?

App. 81
A. Looking back, you know, it’s hard to say. I
think if I would have objected and the way
things worked out in hindsight, that would
have been one thing. That’s not what happened.
Q. Well, it would have been better, wouldn’t
it?
A.

Well, sure.

Q. Do you agree with me that the – Peggy’s
testimony was not admissible, correct?
A.

Correct.

Q. And you agree with me if you had objected you believe Judge Stevens would have
granted the objection, correct?
A. Well, I think he would have heard it and
then heard the State and then, you know, I
don’t know.
************
Q. But by not making the objection, Mr.
Dukes was not able to raise that issue on appeal, was he?
A.

Correct.

************
Q. You also elicited that Mr. Dukes had destroyed phones, lawnmowers and weed eaters,
correct?

App. 82
A. I don’t remember, but I’m not questioning
you, I mean, I know I was going along with the
absurdity of some of the things.
Q. You think it was absurd the claim that he
had been destructive with physical property?
A. They were going over the edge on a bunch
of stuff that I knew I could rebut.
Q.

Well, but you are the one eliciting it?

A.

I know.

Q. That kind of makes things worse, didn’t
it?
A.

In hindsight, yes.

Q. So, collectively, those different areas of
character testimony and extraneous misconduct that we have discussed, you would agree
with me that you either should have objected
to it in the first place or should not have elicited it on your own, correct?
A. In hindsight they probably would have
been. You are correct.
Q. Moving on to the fourth allegation of deficient performance. The prosecutor was questioning Peggy and elicited from her that
Peggy’s therapist had told her that Mr. Dukes
had control issues and that the abuse went on
for so long because there was a bond between
Mr. Dukes and the Complainant based upon
his control of her and sympathy of him, okay?
You follow all that?

App. 83
A.

I follow it.

Q. So, basically, the prosecutor is eliciting
from Peggy opinions that her therapist had?
A.

Correct.

Q. Correct? Do you agree with me that, first
of all, that was inadmissible hearsay as to
what the therapist had said?
A.

Absolutely.

Q. And certainly deprived you of the opportunity to confront the therapist on those opinions, correct?
A.

Correct.

Q. You also agree with me that the substance of the testimony itself communicated
an opinion either from Peggy or the therapist
that the abuse had gone on, that the abuse
had occurred?
A.

Correct.

Q.

And, in fact, had occurred for a long time?

A.

Correct.

Q. Do you agree with me that it is improper
for a witness to give their opinion that the
crime occurred?
A.

Correct.

Q. And so that testimony was objectionable
as improper opinion, as well as hearsay and
confrontation, correct?

App. 84
A.

Correct.

Q. And you did not make an objection, did
you?
A.

There is not one on the record.

Q. And you agree with me that you should
have, correct?
A.

Correct.

Q. And that was not something that, you
know, the friend, Chuck, and the brother, Allen, were in a position to refute, was it? I
mean, they couldn’t testify as to what Peggy’s
therapist had told her and whether that was
accurate?
A.

No. I just missed it.

46. The trial record establishes that all of the testimony at issue [IAC allegations (2), (3), and (4) of
Ground 1] was either admitted before the jury without
objection from trial counsel, or was elicited from the
State’s witnesses by trial counsel and admitted before
the jury.
47. The Court takes notice of Ex parte Bryant, No.
WR-74,973-01, 2014 WL 6478637, at *7 (Tex. Crim.
App. Nov. 19, 2014) (publication pending), in which the
Court of Criminal Appeals refused to hold all trial attorneys render constitutionally deficient performance
under Strickland who repeatedly fail to object to
State-elicited polygraph evidence, as did that defendant’s trial counsel, to-wit:

App. 85
Instead, we hold that, although the introduction of polygraph evidence almost always falls
below an objective standard of reasonableness
because most attorneys will have no reasonable strategy in allowing the introduction of
such evidence, we cannot categorically exclude the possibility that a trial attorney, under certain circumstances, could use the
admission of polygraph evidence to his client’s
favor. We do find, however, that Applicant’s
trial counsel was deficient in this case.
48. The Court also takes notice of Ex parte Ellis, 233
S.W.3d 324 (Tex. Crim. App. 2007), in which that defendant, convicted for cocaine possession, raised an
IAC claim because his trial counsel introduced into evidence a police report which allowed the jury to learn
about the defendant’s prior conviction for robbery and
a prior murder charge. Id. at 327.
Counsel explained at the habeas evidentiary hearing he introduced the police report to impeach the testimony of the co-defendant, Davis, who was on
probation for marijuana possession at the time of the
arrest, with the fact that defendant-Ellis’ prior criminal history did not include any drug offenses; counsel
further explained that with the police report, he intended to show the jury that defendant-Ellis had been
convicted of robbery, had served his time, and had
made parole early, thereby demonstrating defendantEllis to be “an exemplary person[;] that there was
“nothing to connect [Ellis] or tie him to these drugs except the testimony of Mr. Davis who had cut a deal; and
that, short of having defendant-Ellis testify, which

App. 86
Ellis declined to do, “counsel knew of no way to impeach Davis other than by using the police report.” Id.
at 328.
49. By unanimous opinion in Ex parte Ellis, the
Court determined trial counsel did not perform deficiently under its Strickland analysis, explaining:
We conclude that trial counsel’s strategic
reasons for offering Deputy Donahoe’s police
report were not unreasonable according to
prevailing professional norms as required under the first prong of the Strickland framework. Although the defensive course chosen
by counsel was risky, and perhaps highly undesirable to most criminal defense attorneys,
we cannot say that no reasonable trial attorney would pursue such a strategy under the
facts of this case.
Deputy Donahoe’s testimony supplied
only circumstantial evidence of Ellis’s
knowledge. Because the cocaine was discovered behind the console between the driver
and passenger seats of the truck, his testimony left unresolved the issue of which individual, Davis or Ellis, was in possession of the
cocaine. The testimony of Davis, an accomplice, although sufficiently corroborated by
non-accomplice evidence, was the only direct
evidence connecting Ellis to one of the cocaine
“cookies” seized by Deputy Donahoe. Ellis’s
conviction depended entirely on the credibility of Davis. The theory of the case offered by
counsel was that Ellis was in the wrong place
at the wrong time. Counsel’s trial strategy

App. 87
therefore was to convince the jury that it was
Davis who possessed both of the “cookies.” To
effectuate this strategy, counsel had to undermine Davis’s credibility and, at the same time,
bolster that of his client. Our review of the
trial record shows that counsel, consistent
with his testimony at the evidentiary hearing,
utilized Davis’s and Ellis’s criminal histories
to accomplish these objectives.
************
Nevertheless, the admission of the robbery conviction and murder charge did serve
a strategic purpose. Although potentially detrimental on the one hand, their admission
was potentially beneficial on the other. Because Ellis’s criminal history did not include
and drug-related offenses, it diminished the
likelihood of his involvement here. When coupled with the evidence and arguments made
by counsel concerning Davis’s extensive involvement with drugs, Ellis’s criminal history
strengthened counsel’s theory of the case. A
rational jury considering both Ellis’s and Davis’s criminal histories could have concluded
that Davis was the sole possessor of the cocaine when weighing the evidence in this case.
Id. at 331-332, 335. (footnote omitted)
50. In Garcia v. State, 57 S.W.3d 436 (Tex. Crim. App.
2001), a death penalty conviction, the Court of Criminal Appeals determined trial counsel did not perform
deficiently under Strickland when, during the punishment phase, trial counsel elicited from a defense expert

App. 88
that blacks and Hispanics are overrepresented among
dangerous people in the general population:
Appellant has failed to demonstrate that
his trial counsel’s performance fell below an
objective standard of reasonableness. Counsel
might have been attempting, with Quijano’s
testimony, to do two things: (1) place before
the jury all the factors it might use against
appellant, either properly or improperly, in its
assessment of his future dangerousness and
(2) persuade the jury that, despite all those
negative factors, appellant would not be a future danger if imprisoned for life because the
prison system’s procedures and techniques
would control or eliminate his tendency toward violence. Under the circumstances – the
State had already presented evidence before
the jury that appellant had a long and violent
criminal record – we cannot say that counsel’s
conduct could not be considered sound trial
strategy.
Id[.] at 439, 440-441.
51. Trial counsel’s testimony at the evidentiary hearing establishes that, with one exception, his failure to
object to, and his affirmative elicitation of, the testimony depicted in Ground 1, IAC allegations (2), (3),
and (4) was in furtherance of his main defensive strategy, which was to destroy the credibility of both complaining witness, L.G., and her mother, Peggy Dukes.
[See Supp.RR.pp.37, 40, 79, 117-119]

App. 89
52. Trial counsel’s testimony at the evidentiary hearing establishes that the entire foundation of this main
defensive strategy rested on the testimony of defense
witnesses, Allen Dukes, applicant’s brother, and Chuck
Hammock, a long-time family friend of the Dukes’ family, and a man trial counsel had known for “many
years” and who trial counsel believed to be very credible. [Supp.RR.pp.37-38, 4344, 79, 82, 84-85]
53. The habeas record contains no evidence indicating applicant expressed to trial counsel his desire to
testify at trial in his own defense, and applicant does
not now allege trial counsel was ineffective for failing
to call him as a witness for the defense.
54. Trial counsel’s testimony at the evidentiary hearing establishes it was shortly after the State rested its
case-in-chief and counsel was about to open his case for
the defense, at the guilt-innocence phase of trial, when
counsel first learned, during the lunch-time recess,
both Allen Dukes and Chuck Hammock had been entirely dishonest with him regarding their knowledge
of truthful impeachment-evidence about which they
were to testify in applicant’s defense. [4RR77-78;
Supp.RR105]
55. Trial counsel’s testimony establishes that up until he was about to open the guilt-innocence phase case
for the defense, just before uncovering Hammock’s and
Allen Dukes’ deception, trial counsel firmly believed
the testimony from Allen Dukes and Chuck Hammock
would not have merely refuted the complainant’s sexual abuse allegations and Peggy Dukes’ testimony

App. 90
relating to applicant’s character flaws and extraneous
misconduct, but would have shown that L.G. and Peggy
“were lying.” [Supp.RRpp. 37-38, 81, 105; 4RR77-78]
56. As confirmed by the trial record, trial counsel’s
testimony establishes that once he discovered Allen
Dukes’ and Chuck Hammock’s plan to present fabricated testimony, and then dismissed them as defense
witnesses, trial counsel was unable to come up with an
alternative case for the defense, and he rested the case
for the defense without presenting any defense witnesses. [Supp.RRpp.45, 112; 4RR77-78]
57. Trial counsel explained that he wanted the “objectionable” testimony at issue admitted before the
jury during trial stating “[it] was going to come in at
some point[,]” because, pursuant to his strategy,
“Where was a lot of evidence was going to develop
through my witnesses that might have got into that[.]”
[Supp.RRp.85]
58. Peggy Dukes’ testimony, elicited by the State, relating her therapist’s opinion that applicant had “control issues,” and that the abuse went on so long because
there was a bond between applicant and L.G. based on
his control and her sympathy, was the only objectionable [“inadmissible hearsay”] testimony at issue to
which trial counsel admitted to not having intended for
the jury to hear, explaining, “I just missed it.”
[Supp.RRpp.95-96]
59. Trial counsel’s testimony at the evidentiary hearing established that it was immaterial to him that the
particular testimony at issue from either L.G. or Peggy

App. 91
Dukes was admissible or inadmissible because counsel
had intended to place it before the jury in furtherance
of his defensive strategy to destroy the credibility
of those witnesses, and he was confident that the
testimony of Allen Dukes, in whom Peggy and L.G.
had confided on several occasions, and Chuck Hammock, a long-time family friend, would accomplish
this. [Supp.RRpp.116-119; 3RR67-68; 114-115; 117118; 162]
60. Trial counsel’s testimony establishes that only in
hindsight, and with the knowledge he now possesses
that the evidentiary foundation of his defensive strategy – Allen Dukes’ and Chuck Hammock’s impeachment-testimony – was never presented to the jury, does
he now concede that objecting to, and not eliciting, the
alleged objectionable testimony at issue would have
been the more appropriate method of defending applicant during trial. [Supp.RRpp.88, 90-94]
61. The Court notices that in enacting the Continuous Sex Abuse offense under § 21.02, the Legislature
sought to bridge a perceived gap in Texas criminal law
when the underlying facts ties a suspect to “a sexually
abusive relationship with a young child . . . marked by
continuous and numerous acts of sexual abuse of the
same or different varieties.” See Price v. State, 434
S.W.3d 601, 607-608 (Tex. Crim. App. 2014) (discussing
the circumstances of enactment and legislative history
of § 21.02).
62. A defendant charged with an offense under
§ 21.02 is aware from the face of the indictment that

App. 92
the State, in its case-in-chief, will be permitted to introduce evidence before the factfinder that during a period of 30 or more days, the defendant committed at
least two [and usually more than two] acts of “sexual
abuse,” which will include proof of at least two of the
eight predicate sex-offenses listed under § 21.02(c),
committed against one or more children under 14
years of age.
63. Because Continuous Sex Abuse is one of the offenses listed under Article 38.37, § 1(a)(1), the State is
not restricted in its proof to only those acts of sexual
abuse alleged in the Continuous Sex Abuse indictment;
the State, as it did during applicant’s jury trial, is permitted to introduce, notwithstanding Rules of Evidence 404(b) and 405 relevant “evidence of other
crimes, wrongs, or acts committed by the defendant
against the child . . . including:” the child’s and the defendant’s state of mind, and the previous and subsequent relationship between the child and the
defendant. Article 38.37, § 1(b)(1) & (2) (emphasis added).
64. Because the Legislature used the word “including” immediately before the two listed purposes for introducing extraneous crime or misconduct evidence
committed against the child in Article 38.37, § 1(b), the
two listed purposes are considered illustrative and not
exclusive. Berry v. State, 233 S.W.3d 847, 848 (Tex.
Crim. App. 2007) (construing Texas Rule of Evidence
404(b)’s list of “other purposes” in such a manner[)].
65. Applicant claims portions of the objectionable evidence at issue were inadmissible because applicant’s

App. 93
character had not been made an issue during trial, and
was not relevant when said evidence was admitted,
and that trial counsel erroneously believed it was.
[Supp.RR79-81, 84, 88-89]
66. The Court notices that in Hammer v. State, 296
S.W.3d 555, 561 (Tex. Crim. App. 2009), the Court observed: “Trials involving sexual assault may raise particular evidentiary and constitutional concerns
because the credibility of both the complainant and the
defendant is a central, often dispositive, issue.”
67. At the evidentiary hearing, it appears that applicant’s questions and trial counsel’s responses on the
matter of whether applicant’s “character” had been relevant during trial confuse the term “character” with
“credibility.”
68. Taken in the context of “credibility,” the Court
finds trial counsel was correct in his opinion that “character” – in other words “credibility” – “was always an
issue.” [Supp.RR84]
69. Because the jury was provided with DNA evidence strongly indicating the presence of applicant’s
semen on L.G.’s bedsheets, corroborating L.G.’s testimony that applicant had sexual intercourse with her
on her bed three days before her outcry, and with the
tape-recorded phone call by applicant from jail to
Peggy during which he admitted committing some type
of sexual abuse of L.G. “one time,” the trial-evidence
does not present what is typically considered a strict
“he said, she said” battle of credibility between the
complaining witness and the defendant. See e.g.,

App. 94
Pawlack v. State, 420 S.W.3d 807, 811 (Tex. Crim. App.
2013); Barshaw v. State, 342 S.W.3d 91, 95 (Tex. Crim.
App. 2011); Hammer, 296 S.W.3d at 561-562, 568; Ex
parte Thompson, 153 S.W.3d 416, 422 (Tex. Crim. App.
2005) (Cochran, J., concurring).
70. Based on the nature of the offense, and the availability of Article 38.37 to the State, trial counsel was
faced with the fact that in the State’s case-in-chief, the
jury would learn not only of applicant’s multiple and
repeated acts of sexual abuse of L.G. as alleged in the
indictment, but would also hear evidence of any other
relevant “crimes, wrongs, or acts” perpetrated on L.G.
by applicant both before and after the book-end dates
alleged in the indictment.
71. Having considered Ground 1, IAC allegations (2),
(3), and (4) in light of the trial record, of trial counsel’s
testimony at the evidentiary hearing, and of the clearly
controlling legal principles noticed above, and after
eliminating the distorting effects of hindsight, this
Court cannot find the defensive strategy undertaken
by trial counsel – to destroy the credibility of L.G. and
Peggy Dukes by first permitting their extraneous misconduct/character-attack testimony relating to applicant to reach the jury, in anticipation of testimony by
the two defense witnesses tearing apart and exposing
as “lies” each individual instance of said extraneous
misconduct/character-attack testimony – was objectively unreasonable under prevailing professional norms
based on the totality of the circumstances as they existed at the time of trial.

App. 95
72. To find otherwise would require this Court to find
trial counsel’s defense strategy under the totality of
the circumstances existing at the time of trial to be “so
outrageous that no competent attorney would have engaged in it.” Goodspeed v. State, 187 S.W.3d 390, 392
(Tex. Crim. App. 2005).
73. On the habeas record presented, this Court cannot find trial counsel’s strategy “outrageous,” especially when deficient performance of defense counsel
was not found under the arguably more egregious facts
and circumstances presented in Ex parte Ellis [see
Findings 48 & 49 above], and Garcia v. State [see Finding 50 above], and when the CCA rejected a per se finding of deficient performance as to all defense counsel
who repeatedly fail to object to State-elicited evidence
relating to polygraph results in Ex parte Bryant [see
Finding 47 above].
74. From the totality of the circumstances existing at
the time of trial, and considering the totality of trial
counsel’s representation appearing in the entire trial
record, the Court finds trial counsel did not render objectively unreasonable assistance by either failing to
object, or by affirmatively eliciting, the “bad character,”
“extraneous offense/misconduct,” “character,” and “improper opinion” evidence of which applicant complains
in Ground 1, IAC allegations (2), (3), and (4).
75. Additionally, assuming without deciding that
trial counsel performed deficiently regarding the evidentiary complaints raised in Ground 1, IAC allegations (2), (3), and (4), the Court finds that applicant has

App. 96
failed to show, by a preponderance of the evidence,
there is a reasonable probability that, but for counsel’s
errors, the jury would have had a reasonable doubt respecting applicant’s guilt. Strickland, 466 U.S. at 695.
76. In other words, applicant has failed to prove by
a preponderance of the evidence that if all of the
extraneous-offense/misconduct, character, and opinion
evidence at issue had been excluded by the trial judge,
the outcome at trial would have been different. See Ex
parte Howard, No. AP-76,809, 2013 WL 4859010, at * 4
(Tex. Crim. App. Sept. 11, 2013) (not designated for
publication) [not cited for any proposition of law, but
for instructive purposes in Strickland analysis]
77. Without any defensive evidence to question the
credibility of L.G.’s testimony describing the months,
and years, of applicant’s sexual abuse, the evidence of
applicant’s guilt for Continuous Sex Abuse, as alleged
in the indictment, was substantial and uncontested, towit:
(a) the fact this Court has concluded applicant was not entitled to having the jury instructed on any lesser included offense as a
matter of law under Ground 1, IAC allegation
(1);
(b) the fact that the jury was presented with
uncontested testimony from L.G. that applicant sexually abused her on numerous occasions, over a period of time that exceeded 30
days, when she was 13 years of age as alleged
in the indictment;

App. 97
(c) the fact that the jury was presented with
physical evidence, also uncontested, strongly
suggesting the presence of applicant’s semen
on L.G.’s bedsheet following DNA analysis of
said bedsheet, this evidence additionally corroborating L.G.’s testimony that the last time
applicant had sexual intercourse with her was
a few days before her September 21, 2009, outcry [3RR135]; and,
(d) the fact the jury heard applicant acknowledge to Peggy Dukes he “did it one time”
with L.G., which was construed by Peggy
Dukes as applicant admitting to having committed some type of sexual abuse of L.G.
[3RR77]
78. The Court notices the IAC prejudice-prong analysis
in Ex parte Martinez, 330 S.W.3d 891, 902-904 (Tex.
Crim. App. 2011) concludes with the following:
We conclude that the record does not support
the conclusion that Applicant met the second
prong of the Strickland test. There was ample
evidence to support a reasonable jury’s finding of guilt. We cannot say that there is a reasonable probability that the outcome would
have been different if Counsel had objected to
all of the gang-related evidence. It is unlikely,
in the face of all the evidence with which the
jury was presented, that the jury would have
reached a different conclusion in the absence
of the gang-related evidence, and so we need
not address the first prong of Strickland.
Id. at 904.

App. 98
79. From the foregoing analysis of Ground 1, IAC allegations (2), (3), and (4), the Court concludes that applicant has not proven, by a preponderance of the
evidence, (a) that trial counsel’s performance was objectively um-reasonable, and (b) that that applicant
was prejudiced by any of counsel’s alleged performance-deficiencies relating to those evidentiary matters.
C. Failure To Argue Evidence of L.G. ‘s Prior Sexual
Relationship Admissible Under Federal Confrontation
Clause and Because State Opened Door
80. This portion of the supplemental findings and
conclusions addresses Ground 1, IAC allegation (5), towit:
(5) Counsel failed to argue that evidence regarding the complainant’s prior sexual relationship with her boyfriend was admissible
based on applicant’s federal constitutional
rights to confrontation and cross-examination
and because the State had opened the door to
it.
81. In his Supporting Brief, applicant expands on this
IAC allegation in the following manner: [Supporting
Brief p. 23, 25]
Counsel wanted to impeach L.G.’s testimony
on direct examination that she had not had
sex with anyone, including Mull. If she denied
previous sexual relations when he asked her
about it on cross-examination, he was prepared to call witnesses to impeach her and to

App. 99
testify that applicant tried to prevent her
from being sexually active.
************
Applicant was entitled to confront and crossexamine L.G. about her prior sexual relationship with Mull to demonstrate her motive to
protect Mull from prosecution for sexual assault and to provide an alternative medical
explanation for the results of the sexual assault examination that indicated that her hymen had been penetrated.
Even if the proffered testimony was otherwise
inadmissible, L.G.’s testimony on direct examination that she had not had sex with anyone
before applicant, including Mull, opened the
door to impeachment on that issue. Rule of
Evidence 107 “permits the introduction of otherwise inadmissible evidence when that evidence is necessary to fully and fairly explain
a matter ‘opened up’ by the adverse party.”
Walters v. State, 247 S.W.3d 204, 217-18 (Tex.
Crim. App. 2007).
82. This particular IAC allegation appears based on
the premise that admissible evidence existed prior to
trial, or came to light during trial, that would have impeached L.G.’s testimony denying any prior sexual relations with anyone, including her boyfriend, J.D. Mull.
83. Applicant’s argument contains two inferences
that are not supported in the instant habeas record: (1)
that impeachment evidence in some admissible form
existed affirmatively demonstrating that L.G. and her

App. 100
boy-friend, J.D. Mull, did have a sexual relationship
prior to, or at the time of, L.G.’s sexual ab-use outcry;
and (2) that trial counsel had witnesses he could call
to impeach L.G. on this particular matter, and further
testify applicant tried to prevent L.G. from being sexually active. [Supporting Brief p. 23]
84. Trial counsel’s uncontested testimony at the evidentiary hearing establishes he had no additional defense witnesses after he refrained from calling Allen
Dukes and Chuck Hammock upon learning of their intent to present fabricated testimony to the jury.
[Supp.RR38]
85. Applicant’s legal premise here asserts “[e]vidence
of the complainant’s previous sexual behavior is admissible when its exclusion would violate the accused’s
constitutional rights to confrontation or due process.”
[Supp.Br.23-24]
86. While applicant points to the fact that L.G. had
denied any previous sexual relations with anyone, including Mull, on direct examination [Supp.Br.25], applicant does not direct the Court’s attention to where
in the habeas record there is evidence that L.G. and
Mull had indeed established a sexual relationship
prior to, or at the time of, L.G.’s sexual abuse outcry on
September 21, 2009.
87. The authority cited on pages 24-25 of applicant’s
Supporting Brief concern cases where evidence of the
complainant’s relationship or sexual encounter with
men other than the defendant did exist, but for whatever reason, the defendant was prevented from

App. 101
presented said evidence at trial; whereas, in the instant habeas record, no such evidence appears, nor is
there any showing such evidence was available to trial
counsel from some source, including L.G., prior to, or
during, trial.
88. The emphasized-portion of the following assertion [emphasis by this Court] appearing in applicant’s
Supporting Brief [p.25] – “The exclusion of testimony
regarding L.G.’s sexual relationship with Mull violated
applicant’s Sixth Amendment right to cross-examine
and confront L.G., which trump Rule 412[.” [sic] – assumes a fact [L.G.’s sexual relationship with Mull] the
existence of which has no evidentiary support in the
instant habeas record.
89. Applicant’s position in IAC allegation (5) is that,
because the Confrontation Clause of the Sixth Amendment has been interpreted to give applicant a right to
“present a defense,” and to cross-examine adverse witnesses to expose a witness’s partiality, bias, and motivation to testify, trial counsel was entitled to provide
the jury with L.G.’s testimony regarding her sexual relationship with Mull.
90. While applicant presents a proper IAC claim regarding counsel’s failure to present a Confrontation
Clause argument in attempting to cross-examine L.G.
regarding her sexual relationship with J.D. Mull, and
it is uncontested that the habeas record supports the
fact that trial counsel did not present the Court with
said argument, applicant fails to submit evidence supporting the existence of the fact that L.G. and Mull did

App. 102
indeed have a sexual relationship prior to, or at the
time of, L.G.’s outcry, in order to demonstrate applicant
was actually harmed by counsel’s failure to raise said
argument. See Ex parte McCain, 67 S.W.3d 204, 209 n.
10 (Tex. Crim. App. 2002) (“Appellant properly made a
claim of an involuntary/unintelligent plea but failed to
offer evidence at the habeas hearing to support it.
Without any allegation or evidence of actual harm, this
Court cannot grant habeas relief on an abstract proposition of law.”)
91. In the instant habeas matter, assuming without
deciding counsel performed deficiently by not arguing
either Confrontation Clause or “State-opened-thedoor” as a basis for cross-examining L.G. on her prior
sexual relationship with Mull, without any evidence
that L.G. and Mull had established a sexual relationship prior to, or at the time of, L.G.’s September 21,
2009, sexual abuse outcry, the Court finds applicant
has failed to establish actual harm to his defense because, as previously noted above in Finding 76, applicant was not entitled to any lesser included offense
instructions as a matter of law, and the evidence of his
guilt for the charged offense, Continuous Sex Abuse,
was substantial.
92. From the foregoing analysis of Ground I, allegation (5), the Court concludes that applicant has not
proven, by a preponderance of the evidence, that he
was prejudiced by trial counsel’s performance relating
to the alleged omissions set out therein.

App. 103
RESOLUTION OF GROUND 1’S IAC CLAIM
93. Considering Ground 1’s IAC claim in its entirety
in light of the totality of trial counsel’s representation,
the Court finds applicant has not proven, by a preponderance of the evidence, both Strickland-prongs for establishing constitutionally ineffective assistance. The
Court, therefore, concludes that applicant has failed to
demonstrate he received ineffective assistance of counsel in violation of the Sixth Amendment.
RECOMMENDATION
Because applicant has failed to establish he did
not receive reasonably effective assistance of counsel
at trial in violation of the Sixth Amendment, the Court
respectfully recommends that all relief requested in
the instant habeas application, No. 10-08423-A, be DENIED.

App. 104
ORDER
THE CLERK OF THIS COURT IS HEREBY ORDERED to immediately forward to the Texas Court of
Criminal Appeals the following:
1. this Court’s supplemental findings, conclusions, and recommendation in the present
abatement matter, Writ No. 10-08423-A;
2. any additional answers, responses, affidavits, exhibits, attachments, or other papers received by the Court from either the applicant
or the State after the Court of Criminal Appeals issued its September 24, 2014, abatement order in the present abatement matter,
Writ No. 10-08423-A;
3. the supplemental clerk’s record in the present abatement matter, Writ No. 10-08423-A;
4. the reporter’s record from the November
21, 2014, evidentiary hearing conducted in the
present abatement matter, Writ No. 10-08423A; and,
5. all records, documents, papers, or other
matters, from any other relevant sources,
used by this Court during the preparation of
its supplemental findings, conclusions, and
recommendation in the present abatement
matter, Writ No. 10-08423-A.
THE CLERK OF THIS COURT IS FURTHER ORDERED to transmit a copy of this Order, including this
Court’s supplemental findings, conclusions, and recommendation, to the Jefferson County District Attorney’s

App. 105
Office, and to transmit same to applicant’s habeas
counsel, as petitioner, Josh Schaffer, 1301 McKinney,
Suite 3100, Houston, TX 77010.
ENTERED this day, the 20th of January, 2015.
/s/ John B. Stevens
John B. Stevens, Presiding Judge
The Criminal District Court
Jefferson County, Texas

